<html>
<title> - MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
   MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        TUESDAY, MARCH 23, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Tim Johnson (chairman) presiding.
    Present: Senators Johnson, Pryor, Hutchison, Collins, and 
Murkowski.

                         DEPARTMENT OF DEFENSE

STATEMENT OF HON. ROBERT F. HALE, UNDER SECRETARY OF 
            DEFENSE (COMPTROLLER)
ACCOMPANIED BY:
        DOROTHY ROBYN, DEPUTY UNDER SECRETARY OF DEFENSE (INSTALLATIONS 
            AND ENVIRONMENT)
        DEREK MITCHELL, PRINCIPAL DEPUTY ASSISTANT SECRETARY FOR ASIAN 
            AND PACIFIC SECURITY AFFAIRS


                opening statement of senator tim johnson


    Senator Johnson. Good morning. This hearing will come to 
order. I welcome everyone to today's hearing to discuss the 
President's fiscal year 2011 budget request for military 
construction and family housing, as well as overseas 
contingency operations.
    We have two panels today. The first panel includes the DOD 
Comptroller, Mr. Bob Hale; Dr. Dorothy Robyn, Deputy Under 
Secretary for Installations and Environment; and Mr. Derek 
Mitchell, Principal Deputy Assistant Secretary for Asian and 
Pacific Security Affairs. Thank you all for coming.
    Our procedure is to have opening statements by the chairman 
and ranking member, followed by opening statements from our 
witnesses. I request that our members limit their questions to 
6-minute rounds.
    I apologize in advance to our witnesses, but I will have to 
leave in a few minutes for the White House for the bill signing 
of the healthcare legislation. I have asked my able ranking 
member, Senator Hutchison, to chair the hearing in my absence.
    The fiscal year 2011 Milcon request totals $18.75 billion, 
excluding overseas contingency funding. It addresses a number 
of major DOD policy initiatives, including the execution of the 
QDR recommendations, the completion of the 2005 BRAC round, the 
Marine Corps realignment to Guam, and the increased focus 
within the Department on renewable energy and energy security.
    On top of this, the budget also provides $1.8 billion in 
overseas contingency Milcon to support the war in Afghanistan. 
By any measure, this is a major undertaking. There are many 
moving pieces and many challenges to executing this request.
    I have a number of questions which I will submit for the 
record.
    Senator Hutchison, would you care to make an opening 
statement?


               statement of senator kay bailey hutchison


    Senator Hutchison. Yes, Mr. Chairman. I apologize. We had 
the TSA nominee in my other committee where I am also ranking 
member. So that is why I am late. But I do have an opening 
statement because I have some great concerns.
    First of all, I want to say that I am pleased that we are 
close to finishing the BRAC commitments that we have made, and 
one thing that our committee has been very firm about is that 
BRAC be fully funded so that we can meet the deadline of 2011. 
And in the main, it looks like we will meet that deadline. 
There will be some slippage I know, but I am pleased about 
that.
    The concerns that I have are in the global defense posture. 
It seems to me that Congress has passed the Overseas Basing 
Commission, and the beginning of that was being implemented 
where we had the commitment to bring home as many troops as 
possible back to the United States, particularly from Germany 
and Korea where the training capabilities and the facilities 
were better addressed in the United States.
    Overall, the Milcon budget had significant reductions in 
each of the last 2 years, but the request before us cuts 
funding but adds more in Europe. And that is my big concern. 
The Quadrennial Defense Review recommends retaining four 
brigade combat teams in Europe, rather than the current 
stationing plan to reduce the number to two. I have raised this 
issue with the Secretary of Defense and the Army Chief of Staff 
because I am concerned that it will disrupt the commitment to 
return our forces to the United States that was announced 
several years ago. Approximately 70,000 was the number. We can 
provide better training, better quality of life for them and 
stability for their families.
    I am also concerned that it will disrupt the extensive 
military construction already in progress to take those two 
brigade combat teams that were planned in the Overseas Basing 
Commission. The sooner that we can get our service men and 
women and into the new state-of-the-art facilities, the sooner 
we will live up to our commitments to provide for them in a way 
that we should as a Nation. Our troops can deploy to any region 
of the world from the United States just as easily as they can 
from Europe and in some cases more so.
    The concern that I have too is with the increase of the 
building in Germany in particular. I will have a question about 
how much of that burden is going to be shared with the host 
country. Germany has not been forthcoming in the past in 
sharing expenses and they have higher quality requirements 
which make military construction more costly. Not counting the 
construction requirements that are specifically related to 
Afghanistan, our specified overseas Milcon request is $2 
billion. That is huge. Now you see $513 million of that are for 
Germany. This includes $186 million for Wiesbaden Army Base, 
four new barracks at Grafenwoehr for $75 million, a training 
facility. Those are just examples. As our services consolidated 
our forces in fewer facilities to save O&M costs, we have to 
build some facilities, but I am concerned about the amount that 
I am seeing and I want to know what is the sharing that is 
going to be anticipated.
    In addition, you have got in the budget $439 million for 
school construction, much of it overseas. I understand the 
overall plan calls for replacing or renovating 109 schools over 
5 years at a cost of over $4 billion. While I recognize that we 
have an obligation to provide quality schools for the children 
of our military personnel serving overseas, I am concerned that 
these requirements are not consistent with our future force 
requirements and posture. So I would like to have a little more 
specificity about those schools.
    And then there is the Guam relocation. We know that there 
is now a plan to relocate 8,000 marines from Okinawa to Guam to 
establish a joint base in Guam, and yet we are now seeing from 
the Environmental Protection Agency, as well as the Government 
of Guam, that they do not believe that their infrastructure 
will in any way be able to accommodate this kind of influx of 
the requirements for the building of this marine base in Guam. 
And there is even an EPA statement that says it is not ready 
and should not be done.
    And then you have got the relocation of the Guantanamo Bay 
detainees. The Department of Defense is requesting $350 million 
in the 2011 defense bill for an overseas contingency operations 
transfer fund to renovate the prison in Thompson, Illinois for 
the relocation of Guantanamo Bay detainees. All of this funding 
is included within the administration's defense bill request, 
but as I understand it, $150 million will go toward military 
construction to renovate the portion of the prison that would 
house the detainees. I am going to ask you to speak to this 
issue, Mr. Hale, because I will be interested to know why the 
military construction funds are not in the military 
construction request.
    I am concerned about this plan in general. We have an 
excellent facility in Guantanamo to house these detainees that 
was constructed at great expense. So I question the basis of 
this.
    So there are a lot of questions I have today, and these are 
just to highlight some of the issues. It may be that I am going 
to request more meetings on this, particularly in regards to 
building more facilities in Korea and Germany, which is exactly 
the opposite of what Congress passed a law to reduce rather 
than add, and at a time when NATO is not fulfilling its full 
responsibilities in the wars in Afghanistan and Iraq, which are 
wars against terrorist activities that affect all of the NATO 
countries--so I think there are some major issues here that are 
going to take more than maybe even one hearing. And I am very, 
very concerned, as I have stated.
    So thank you, Mr. Chairman, for holding the hearing, and I 
look forward to questioning the witnesses.
    Senator Johnson. Thank you, Senator Hutchison.
    Secretary Hale, Dr. Robyn, Mr. Mitchell, thank you again 
for appearing before our panel today and thank you all for all 
that you do on behalf of our Nation's military troops and their 
families.
    Your prepared statements will be placed in the record. So I 
ask you to summarize your remarks to allow adequate time for 
questions.
    Senator Hutchison, I will now turn the gavel over to you, 
and I thank you for chairing this hearing in my absence.
    Senator Hutchison [presiding]. Thank you, Mr. Chairman.
    Did you ask other members to make opening statements or did 
we----
    Senator Johnson. It is your option to ask other members.
    Senator Hutchison. Does anyone want to? Okay. Then I think 
we should go directly to questions.
    Since I have made an opening statement, I will ask my 
colleagues to go first on questions, after which I will have 
several questions.
    Senator Johnson. Their testimony should be first.
    Senator Hutchison. Oh, I am so sorry.
    Mr. Hale. I will keep it short.
    Senator Hutchison. Mr. Hale, why do you not go first? Thank 
you very much.


                summary statement of hon. robert f. hale


    Mr. Hale. Thank you. Members of the subcommittee, thank you 
for the opportunity to discuss the military construction 
portion of the fiscal year 2011 budget.
    First off, let me say on behalf of all of us in DOD, I want 
to thank you for your support for the men and women in the 
armed forces. We could not accomplish our mission without your 
assistance, and it is appreciated.
    I submitted a statement for the record. Let me summarize it 
briefly.
    For 2011, the President's base budget asks for $549 billion 
in discretionary budget authority, about a 1.8 percent increase 
after adjustment for inflation. Over the next 5 years, the 
growth average is 1 percent a year.
    The budget contains some vital reforms that I will mention 
in a minute, and it builds on the conclusions of the 
Quadrennial Defense Review.
    The budget furthers the Secretary's three overarching 
goals. First, it reaffirms our commitment to take care of the 
all-volunteer force, which is our highest priority.
    Second, it continues to rebalance this force to focus on 
today's wars, while continuing to provide basic capability for 
the future.
    And third, our request reforms how and what we buy by 
overhauling procurement, acquisition, and contracting, and 
includes termination of seven programs that are performing 
poorly or are no longer needed, including the C-17 and the 
alternate engine for the Joint Strike Fighter.
    For military construction and family housing, our request 
is $18.7 billion. That is about 20 percent less than 2010, but 
the reduction is due to a $5.2 billion decrease in funding for 
base realignment and closure, BRAC. As you know, 2011 is the 
final year of implementation, and most of the major capital 
investments have occurred. If you exclude BRAC and family 
housing, our Milcon request is actually $1.1 billion, or 8.4 
percent higher than in 2010, which is one of the fastest 
growing accounts in our budget. The request supports facilities 
for the new Army Modular Force units, the relocation of marines 
from Okinawa to Guam, and the recapitalization of DOD schools.
    Our family housing request is $1.8 billion, which is 19 
percent, or $436 million less than last year, but we believe we 
have met all of our high priority requirements. Congress added 
$300 million to the DOD budget for the expanded homeowners 
assistance program in 2010. The omission of those funds in the 
2011 request accounts for most of the decline in that area of 
the budget.
    In addition to the base budget, our 2011 budget request 
includes $159.3 billion for overseas contingency operations, 
and that includes $1.3 billion for military construction for 
Afghanistan. Additionally, we are requesting for $33 billion 
for a supplemental in 2010 to cover the cost of deploying an 
additional 30,000 troops the President has ordered to 
Afghanistan. That includes half a billion for military 
construction in Afghanistan.
    Last, I will briefly mention the $7.4 billion the 
Department received last year under the American Recovery and 
Reinvestment Act, better known as the stimulus bill, which is 
allowing us to execute 4,400 projects, including a number of 
major military construction projects. As of February 17, 2010, 
the first anniversary of the stimulus bill, we had obligated 
about 60 percent of the funds received.
    Mr. Chairman, we believe that the 2011 budget request is 
the right one for our time. It asks for the minimum resources 
we need to meet our critical national security objectives, and 
it includes what I believe is a strong military construction 
program. I urge your support.
    Again, I want to thank you for your support for the men and 
women in the military.


                           prepared statement


    Dr. Robyn has a statement. Mr. Mitchell is here to help us 
answer questions on Guam, so he does not have a statement. So 
after Dr. Robyn finishes, we will be glad to turn to questions.
    [The statement follows:]
               Prepared Statement of Hon. Robert F. Hale
    Mr. Chairman, members of the committee, thank you for the 
opportunity to discuss the Military Construction portion of the fiscal 
year 2011 budget request for the Department of Defense.
    On behalf of all of us at DOD, I want to express our gratitude to 
the Congress for continued support of America's Armed Forces. Thanks to 
you, they have the resources to carry out their missions and to ensure 
the security of the United States.
    To set the stage this morning, I would like to provide a brief 
overview of our proposed budget and the amount we are asking for 
Military Construction. Dr. Robyn, Deputy Under Secretary for 
Installations and Environment, will follow with details on our Military 
Construction proposals.
                              base budget
    Mr. Chairman, the President's base budget for fiscal year 2011 
requests $549 billion in discretionary authority. That is an increase 
of more than $18 billion or 3.4 percent over the enacted level in 
fiscal year 2010. Taking inflation into account, the real growth in 
this request is 1.8 percent. Over the 5 years from fiscal year 2010 
through fiscal year 2015, real growth averages 1.0 percent per year.
    This growth reflects the Administration's commitment to the modest 
real growth necessary to equip and sustain a military at war. Before 
making this proposal, the President carefully considered and balanced 
our national security needs with our economic security, taking into 
account the deficit.
    The base budget continues the vital reforms that were introduced in 
the present fiscal year, including our commitment to allocate defense 
dollars more wisely and to reform DOD's processes. It also builds on 
the conclusions of the 2010 Quadrennial Defense Review, which 
established strategic priorities and identified key areas for needed 
investment.
    In the process, the fiscal year 2011 budget reinforces and supports 
the three major institutional priorities laid down by Secretary Gates 
for the Department:
  --First, it reaffirms our commitment to take care of the all-
        volunteer force, which the Secretary considers our greatest 
        strategic asset.
  --Second, the proposed budget continues to rebalance the Department's 
        programs to prevail in current conflicts by continuing 
        increases in Special Operations forces, providing more rotary-
        wing capability, and increasing intelligence, surveillance and 
        reconnaissance.
    Rebalancing also means maintaining and enhancing capabilities for 
        future conflicts by--among other things--providing funds for 
        continued development of the Joint Strike Fighter and 
        procurement of 42 aircraft, development of a new aerial 
        refueling tanker, buying 10 new ships, improvements in Army 
        ground forces, missile defense enhancements, and a new U.S. 
        Cyber Command.
  --And third, the fiscal year 2011 budget request reforms how and what 
        we buy, by promoting a fundamental overhaul of our approach to 
        procurement, acquisition, and contracting.
    Specifically, this budget proposes to end seven programs that are 
either performing poorly or are no longer needed, including the C-17 
aircraft and the JSF alternate engine. The budget also continues our 
commitments to reform acquisition processes, increase efficiency 
through selective in-sourcing of work now performed by contractors, and 
slow the growth in healthcare costs while continuing to provide high-
quality healthcare services.
                military construction and family housing
    The Military Construction and Family Housing portion of this 
request supports these three budget objectives. We are asking for $18.7 
billion for Military Construction and Family Housing, a reduction of 
almost 20 percent compared with the enacted level in fiscal year 2010.
    This change is largely due to a $5.2 billion decrease in funding 
for Base Realignment and Closure (BRAC). By law, fiscal year 2011 is 
the final year to implement BRAC, and as a result, most major capital 
investments have already been made.
    Excluding BRAC and Family Housing, the fiscal year 2011 Milcon 
request is actually $1.1 billion higher than the fiscal year 2010 
enacted amount, an increase of about 8.4 percent. This increase is 
associated with facilities in support of new Army Modular Force units, 
the relocation of 8,000 marines from Okinawa to Guam, and 
recapitalization of schools under the DOD Education Activity (DODEA).
    The total fiscal year 2011 budget request for Family Housing is 
$1.8 billion, which is about 19 percent or $436 million less than the 
fiscal year 2010 enacted amount. Included are funds for new housing, 
improvements to existing housing units, operation and maintenance of 
government-owned housing, leasing, the Military Housing Privatization 
Initiative (MHPI) program, and the Homeowners Assistance Program (HAP).
    HAP assists military and civilian personnel who were adversely 
affected by the downturn in the housing market and who are also facing 
a necessary move. In fiscal year 2010 Congress added $300 million to 
the DOD budget to fund HAP expansion, and its omission in fiscal year 
2011 accounts for most of the decrease in the Family Housing budget for 
next year.
                    overseas contingency operations
    In addition to the base budget, our fiscal year 2011 request seeks 
funds to support overseas contingency operations (OCO), largely in 
Afghanistan and Iraq. We have also requested supplemental 
appropriations of $33 billion in fiscal year 2010 to cover the costs of 
the additional 30,000 troops that President Obama ordered deployed to 
Afghanistan. We are hopeful that Congress will approve that request by 
spring.
    Our fiscal year 2011 OCO request is $159.3 billion. This request 
provides our troops with what they need to carry out their mission. It 
also supports a responsible drawdown of U.S. forces in Iraq and a 
stronger force in Afghanistan.
    The proposed OCO budget for fiscal year 2011 includes $1.2 billion 
for Military Construction. The requested amount will be spent in 
Afghanistan. Given the limited pre-existing infrastructure for our 
troops in that country, it is necessary to construct facilities to 
sustain, protect, and house them. Accordingly, this request includes 
operational facilities, such as runways and parking aprons, as well as 
associated support facilities, such as utilities, roads, housing, 
environmental projects, and dining facilities.
                 american recovery and reinvestment act
    Little more than a year ago, the Department received $7.4 billion 
in Defense-related funding under the American Recovery and Reinvestment 
Act (ARRA). That amount included nearly $4.3 billion for the 
sustainment and restoration and modernization of facilities, $2.2 
billion for military construction, $0.1 billion for the Energy 
Conservation Investment Program (ECIP), $0.3 billion for Research, 
Development, Test, and Evaluation (RDT&E), and nearly $0.6 billion for 
the Homeowners Assistance Program.
    Through this funding we will be able to execute over 4,400 projects 
in the 50 States, the District of Columbia, Guam, and Puerto Rico. 
These projects will improve the facilities where our military and 
civilian personnel work and live, enhance energy efficiency in the 
recapitalization and construction of facilities, and generate needed 
jobs to help stimulate the Nation's economy.
    As of February 17, 2010--the first anniversary of the Recovery 
Act--the Department had obligated approximately $4.2 billion (more than 
57 percent) of the funds received for more than 3,700 projects. These 
projects will not only stimulate the economy; they will also improve 
the quality of life of our Service Members and their families. 
Additionally, through the funds made available for the Housing 
Assistance Program, the Department has already been able to pay more 
than 600 claims to assist military and civilian personnel and expects 
to pay many more.
    In military construction, 97 of 117 projects have been awarded. The 
remaining 20 projects involve $1.7 billion of unobligated funds, 
including $1.2 billion for two hospitals that are scheduled for award 
near the end of the fiscal year--one at Camp Pendleton, California, and 
the other at Fort Hood, Texas.
                               conclusion
    I believe that the fiscal year 2011 budget request represents a 
prudent request that asks for the minimum resources we need to meet our 
critical national security objectives. Our budget supports a strong 
Military Construction program. I urge your support for DOD's fiscal 
year 2011 budget request.
    Lastly, Mr. Chairman, I want to thank you and the members of the 
committee once again for your strong support of the men and women of 
the Department of Defense. We are very grateful.

                 SUMMARY STATEMENT OF DR. DOROTHY ROBYN

    Dr. Robyn. Thank you. Thank you, Ranking Member Hutchison, 
Senator Collins.
    Let me use my brief time to address two of the issues that 
you raised, Senator Hutchison, in your opening statement: Guam 
and BRAC.
    First, Guam. And Derek Mitchell can provide even more 
refined answers than I can. But let me say that I have been 
deeply involved in the Department's efforts to move 8,000 
marines and their families from Okinawa to Guam. Like any 
international effort this large and complex, the buildup on 
Guam faces an array of challenges, but no single realignment 
has a higher profile within the Department. The Deputy 
Secretary, Bill Lynn, is personally overseeing the effort.
    Our fiscal year 2011 budget request includes $452 million 
for military construction on Guam. These projects will yield 
long-term benefits for all the military forces on Guam. They 
will also demonstrate the Department's commitment to working 
with the Governor of Guam whose strong support for the buildup 
has been absolutely critical to our effort.
    I appreciate the support that the subcommittee has given us 
in the past, and look forward to working with you.
    Let me just say with respect to the EPA evaluation of the 
draft environmental impact statement, it is true that Guam's 
infrastructure now cannot support a buildup that we anticipate, 
but we knew that all along and the Federal Government is 
committed to working with Guam--the Federal Government as a 
whole, the civilian agencies, as well as DOD, to working with 
Guam to improve and expand its infrastructure to support the 
buildup. And we believe and I think the Governor believes that 
this will be a win-win, good for Guam and good for the U.S. 
military.
    Second, let me say a little bit about the implementation of 
BRAC. My office oversaw the process that resulted in the 
recommendations that went to the BRAC commission, and we 
oversee the implementation of BRAC as it is carried out by the 
services. Senator, you said that there would be some slippage. 
I hope there will not be slippage. We have 220 actions; 28 of 
them are completed. We are on a very tight timeline. Thirty of 
the 222 actions have at least one construction project that 
completes within 90 days of the deadline, September 5, 2011. 
And of those, six are of particular concern, but we hope that 
they all come in on schedule.
    Last week, my staff and I briefed your staff on the status 
of those six most challenging actions. We are working closely 
with the services on those, and we pledge to keep your staff 
regularly informed on the status of those. So we are committed 
to bringing those in on time. The Department has never missed a 
BRAC deadline in four rounds, and I do not want to break that 
perfect record.

                           PREPARED STATEMENT

    Let me also, with respect to BRAC, just highlight the 
success of joint basing, which was one component of BRAC 2005. 
When this BRAC round started, there were those who were deeply 
opposed to joint basing. However, it received senior attention 
and support from you all, and we have moved forward 
successfully. I am pleased to say we are no longer 
``implementing'' joint basing. We are now ``operating'' joint 
bases.
    With that, let me conclude, and I look forward to taking 
your questions.
    [The statement follows:]
                Prepared Statement of Dr. Dorothy Robyn
    Chairman Johnson, Senator Hutchison, and distinguished members of 
the subcommittee: Thank you for the opportunity to present the 
President's fiscal year 2011 budget request for the Department of 
Defense programs that support our installations.
    Installations are the military's infrastructure backbone--the 
platform from which our soldiers, sailors, airmen, and marines 
accomplish their missions. Installations have long supported the 
maintenance and deployment of weapons systems and the training and 
mobilization of combat forces. Increasingly, they have an even more 
direct link to combat operations, by providing ``reachback'' support. 
For example, we operate Predator drones in Afghanistan from a facility 
in Nevada and analyze battlefield intelligence at data centers in the 
United States. Our installations are also becoming more important as a 
staging platform for homeland defense missions.
    Installations affect not just our mission effectiveness but the 
very quality of life that our service members and their families enjoy. 
Families' satisfaction with the most critical services they receive--
housing, healthcare, childcare, on-base education--is linked to the 
quality and condition of our buildings and facilities.
    The Department must manage its installations--the natural as well 
as the built environment--efficiently and effectively. This is a major 
challenge. The Department's 507 permanent installations comprise more 
than 300,000 buildings and 200,000 other structures--everything from 
bridges to flagpoles--and have an estimated replacement value of more 
than $800 billion. These installations are located on some 5,000 sites 
and occupy 28 million acres of land here in the United States and 
overseas. These lands are home to archaeological and sacred sites, old-
growth forests and more than 300 threatened and endangered species.
    Today, I will focus on the key elements of the budget that support 
our installations: Military Construction, including Overseas 
Contingency Operations and International Basing; Base Realignment and 
Closure; and Family Housing. I will also discuss our Facilities 
Sustainment, Restoration and Modernization programs. Finally, I will 
describe our strategy for improved management of energy at our 
installations.
             military construction, brac and family housing
    The fiscal year 2011 Military Construction (Milcon) and Family 
Housing appropriations request totals more than $18.7 billion, a 
decrease of approximately $4.6 billion from the fiscal year 2010 
enacted level. This decrease primarily reflects the decline in the 
level of investment needed for BRAC 2005 as we approach the statutory 
deadline for completion (September 2011). This budget request will 
allow the Department to respond rapidly to warfighter requirements, 
enhance mission readiness and provide essential services for its 
personnel and their families.

         COMPARISON OF MILITARY CONSTRUCTION AND FAMILY HOUSING
                        [In millions of dollars]
------------------------------------------------------------------------
                                            Fiscal year     Fiscal year
                                           2010 enacted   2011 requested
------------------------------------------------------------------------
Military Construction...................        12,545.8        13,705.7
Base Realignment and Closure IV.........           496.7           360.5
Base Realignment and Closure 2005.......         7,455.5         2,354.3
Family Housing Construction/Improvements           488.8           356.8
Family Housing Operations & Maintenance.         1,444.1         1,448.7
Chemical Demilitarization...............           151.5           125.0
Family Housing Improvement Fund.........             2.6             1.1
Energy Conservation Investment Program..           174.2           120.0
NATO Security Investment Program........           197.4           258.9
Homeowners Assistance Program...........           323.2            16.5
                                         -------------------------------
      TOTAL.............................        23,279.8        18,747.5
------------------------------------------------------------------------

                         military construction
    Our request for ``pure'' military construction (i.e., exclusive of 
BRAC and Family Housing) is $13.7 billion. This is a $1.2 billion 
increase over last year's enacted level ($12.5 billion). Let me 
highlight three areas where we focus our fiscal year 2011 Milcon budget 
request.
    First and most important, the budget request supports operational 
mission requirements. Milcon is key to initiatives such as Grow the 
Force and Global Defense Posture realignment, which require the 
synchronized movement of troops and equipment, as well as to the 
fielding of modernized and transformational weapon systems. Our budget 
request includes training and support facilities to accommodate the 
increases in the Army and Marine Corps endstrength; initial funding for 
the new and improved infrastructure needed to relocate 8,000 marines 
and their dependents from Okinawa to Guam; support for the bed down of 
the Joint Strike Fighter; improved and expanded communications and 
intelligence capabilities for Special Operations Forces; and fuel 
distribution facilities for the Defense Logistics Agency.
    Second, the President's budget request initiates a major 
recapitalization of our DOD-dependent schools here in the United States 
and overseas. Fully 134 of the 192 DOD-dependent schools are in poor or 
failing physical condition--the result of longstanding underinvestment 
by the Department. Many of these schools have simply lasted beyond 
their expected service life. Others are improperly configured, lacking 
in essential capabilities, or reliant on temporary structures. The 
fiscal year 2011 budget request includes $439 million to repair or 
replace 10 of these schools. This represents the first phase of a 5-
year plan to recapitalize all 134 inadequate schools.
    Third, the fiscal year 2011 budget request includes more than $1 
billion to upgrade our medical infrastructure. By modernizing our 
hospitals and related facilities, we can improve healthcare delivery 
for our service members and their families, and enhance our efforts to 
recruit and retain personnel. The fiscal year 2011 request provides 
funds for our top two priorities: the replacement of the Naval Hospital 
in Guam and the Ambulatory Care Center at Lackland Air Force Base, 
Texas. It also allows us to continue improving the chemical/biological 
defense facilities that are conducting such vital work.
                    overseas contingency operations
    Military construction serves as a key enabler in Overseas 
Contingency Operations (OCO), by providing the facilities that directly 
support military activity. Our fiscal year 2011 budget request includes 
$1.3 billion for Milcon necessary to support the new strategy for 
counterinsurgency and increased force levels for ongoing OCO in the 
U.S. Central Command's area of responsibility. Specifically, our fiscal 
year 2011 budget request expands the logistical and facilities backbone 
needed to increase our operational capability, replaces expeditionary 
facilities at the end of their lifecycle, consolidates functions and 
facilities, and supports Special Operations Forces. These additional 
operational facilities will provide support for tactical airlift; 
airborne intelligence, surveillance and reconnaissance; and additional 
fuel, storage, and cargo handling and distribution capability at 
critical locations. The request also provides for replacement of 
temporary housing, dining facilities and other basic infrastructure.
                          international basing
    To project power globally, the Department must have the right mix 
of military forces and facility infrastructure at strategic locations. 
We are undergoing a global re-stationing, both to strengthen our 
forward military presence and to transform overseas legacy forces, cold 
war basing structures and host-nation relationships into a flexible 
network of capabilities to which we and our allies and partners have 
shared access.
    My office works closely with the Joint Staff and other Defense 
organizations to ensure that our overseas base structure supports the 
needed range of strategic missions across all theaters. While our work 
on overseas basing has traditionally focused primarily on the cost and 
engineering aspects of military construction and sustainment/
recapitalization, we have recently taken on a broader role in support 
of emerging global posture initiatives: Increasingly, we provide 
analytic input to strategic discussions, by evaluating existing 
infrastructure capacity relative to emerging mission requirements.
    Our goal is to ensure that decisions reflect joint planning and 
rigorous analysis that integrates requirements across all of the 
Services. Current focus areas include: providing guidance and 
monitoring in support of the Army's consolidation of command and 
control activities in Weisbaden, Germany; analysis and evaluation of 
options for full recapitalization of the Landstuhl Regional Medical 
Center in Germany; and analysis and support for efforts to relocate 
more than 8,000 marines and their dependents from Okinawa to Guam.
Rebasing Marines From Okinawa to Guam
    The realignment of marines from Okinawa to Guam, which is perhaps 
the most significant change in our force posture in Asia in decades, 
will further several strategic goals. First, it will strengthen our 
alliance with Japan by resolving long-standing problems with our 
presence in Okinawa. Second, it will ensure the continued long-term 
presence of U.S. forces in Japan and in the Western Pacific. Third, by 
making better use of Guam's strategic advantages, this realignment will 
more effectively array U.S. forces for the complex and evolving 
security environment in Asia.
    The political situation in Japan remains extremely delicate and the 
stakes are high. The U.S. Government is unlikely to get another 
opportunity to craft a strategic realignment that not only enhances our 
regional force posture but also incorporates more than $6 billion of 
Japanese financing. The Government of Japan has undergone a transition 
with the creation of the Democratic Party of Japan (DPJ)-led government 
in September 2009. The DPJ leadership, working with coalition partners, 
has initiated a process to review the Realignment Roadmap before 
endorsing the agreement in full, which is expected to happen in May 
2010. The U.S. Government remains committed to successful 
implementation of the Realignment Roadmap because it provides a needed 
solution to critical strategic challenges to the long-term presence of 
U.S. military capabilities in Japan and the Asia-Pacific region.
    The fiscal year 2011 President's Budget request includes $452 
million to support the relocation of marines from Okinawa to Guam. This 
includes projects to upgrade the wharf, provide utilities, ramp and 
roadway improvements, and carry out site preparation and utilities 
construction for the Marines' main cantonment area. These projects will 
yield long-term benefits for all the military forces on Guam. They will 
also demonstrate the Department's commitment to working with the 
Governor of Guam, whose strong support for the relocation can have a 
significant impact on Guam's population.
    In support of the relocation, the Department released the Draft 
Environmental Impact Statement (DEIS) on November 20, 2009, for public 
review. In addition to the analysis for rebasing of the Marines, the 
DEIS also includes analysis for construction of a new deep-draft wharf 
with shore-side infrastructure to support a transient nuclear-powered 
aircraft carrier, and facilities and infrastructure to support 
establishment and operation of an Army Missile Defense Task Force. The 
public comment period for the DEIS ended February 17, 2010. The 
Department is working with the Council on Environmental Quality, the 
Environmental Protection Agency and other resource agencies to address 
the concerns that were raised by the Federal agencies and the public.
    To address challenges regarding the realignment and to provide the 
appropriate oversight, the Department last year established the Guam 
Oversight Council (GOC), chaired by the Deputy Secretary of Defense. 
The GOC meets regularly to validate requirements, identify and resolve 
issues, provide resource guidance and clarify governance structures. 
Initial challenges taken up by the GOC include the aggressive timeline 
for completion of the realignment of marines from Okinawa to Guam; 
safety of the Futenma Replacement Facility in Okinawa; adequacy of 
training in the Pacific; strategic, operational, and logistic 
implications of posture changes in the Pacific; and successful 
partnership with the Government of Guam.
                      base realignment and closure
    Domestic basing is no less important than international basing, and 
we rely heavily on the Base Realignment and Closure (BRAC) process to 
adapt and improve that basing structure. We are entering our sixth and 
final year of implementation of BRAC 2005, the largest BRAC round 
undertaken by the Department. BRAC 2005 has been a significant engine 
for the recapitalization of our enduring military facilities. By the 
end date (September 15, 2011), the Department will have invested $24.7 
billion in military construction to enhance capabilities and another 
$10.4 billion to move personnel and equipment, outfit facilities, and 
carry out environmental clean-up. These investments will generate 
nearly $4 billion in annual savings beginning in fiscal year 2012. The 
DOD components have implemented BRAC 2005 conscientiously and 
transparently, according to a well-defined process. The Department 
continues to monitor the process closely to ensure that we are meeting 
our legal obligations. To date, 28 BRAC 2005 recommendations have been 
certified as completed.
    The fiscal year 2011 President's Budget includes $2.4 billion for 
BRAC 2005, which fully funds the investments needed to complete 
implementation. This represents a $5.1 billion decrease from the fiscal 
year 2010 enacted level for BRAC 2005. The reduction in funding is due 
primarily to a decrease in construction projects as we near the 
September 2011 completion date. To support continued property disposal 
actions at Prior-BRAC round sites, the fiscal year 2011 budget request 
includes $360.5 million, a decrease of $136 million from the fiscal 
year 2010 enacted level.
    Environmental cleanup at BRAC locations is essential in putting 
unneeded property back in the hands of local communities. The total 
BRAC environmental budget request for fiscal year 2011 is $445 million 
($108 million for BRAC 2005 sites and $337 million for Prior-BRAC round 
sites). These funds will help us continue to meet stakeholder 
expectations and complete cleanup at an additional 154 sites impacted 
by BRAC decisions. Although this request represents a decrease of $109 
million over the fiscal year 2010 request, the reasons for the drop are 
positive. Specifically, the decrease is due to (a) contract 
efficiencies, such as those achieved through performance-based 
acquisition and competitive bidding, and (b) bid cost savings--a silver 
lining in the economic downturn. In addition, as the Military 
Departments have refined their characterization of munitions sites, 
they have found that fewer acres will require cleanup, which has 
lowered projected costs.

           COMPARISON OF BASE REALIGNMENT AND CLOSURE FUNDING
                        [In millions of dollars]
------------------------------------------------------------------------
                                            Fiscal year     Fiscal year
                                           2010 enacted   2011 requested
------------------------------------------------------------------------
Base Realignment and Closure IV.........           496.7           360.5
Base Realignment and Closure 2005.......         7,455.5         2,354.3
                                         -------------------------------
      TOTAL.............................         7,952.2         2,714.8
------------------------------------------------------------------------

    Despite our progress and the significant investment we have made, 
the Department has been perceived as ignoring the impacts of its 
actions, particularly in some communities that are experiencing 
significant growth as a result of BRAC 2005 consolidation. One area 
where growth can have an adverse impact is local transportation. 
Transportation impacts have been and will continue to be mitigated 
through the application of our authority and funding under the Defense 
Access Road (DAR) program. The criteria used to determine whether a 
project qualifies under DAR are limited, however. In particular, they 
may not adequately address the scenario in which a defense action 
causes a significant increase in traffic congestion, as may occur in 
one or more cases as a result of BRAC 2005 consolidation.
    To address this and related issues, the National Academy of 
Sciences is undertaking a BRAC Transportation Improvements Study as 
required by the fiscal year 2010 Military Construction and Veterans 
Affairs and Related Agencies Consolidated Appropriations. A blue-ribbon 
panel named by the National Academy's Transportation Research Board 
will evaluate the DAR criteria and assess the funding of transportation 
improvements associated with the BRAC 2005 program. We hope to receive 
an interim report in May of this year.
    One of the most important initiatives with a basis in BRAC 2005 is 
the consolidation and realignment of medical care delivery in the 
National Capitol Region (NCR), with its focus on transforming medical 
care through a joint delivery system. As I recently testified, this 
extraordinarily complex undertaking will deliver major benefits that 
would not have been possible without BRAC. Moreover, its successful 
completion is dependent on the strict discipline that the BRAC process 
provides. The construction now underway represents a balanced and 
reasonable approach to combining the functions of the old Walter Reed 
Army Medical Center into the new National Military Medical Center at 
Bethesda, Maryland. The result will be a medical delivery platform far 
superior to what we have now--and one on which we can continue to 
build.
    Another BRAC 2005 action that my office has championed is the 
consolidation of 26 installations into 12 joint bases. At each joint 
base, a supporting Service Component provides installation leadership 
for one or more supported Service Components. By consolidating 
installation management and delivery of installation support, joint 
bases will be able to provide more efficient and effective support for 
the overall military mission.
    Our joint bases represent realigned, reconfigured national military 
assets for the joint teams they serve. The first five joint bases 
reached full operational capability on October 1, 2009. The remaining 
seven joint bases reached initial operational capability on January 31, 
2010, and are on their way to full operational capability this coming 
October. We are no longer ``implementing joint basing.'' We are now 
``operating joint bases.''
    I had the opportunity to meet personally with most of the joint 
base commanders in January, and I am encouraged by their can-do spirit 
and dedication to providing excellent installation support to the joint 
teams at each base. Additionally, I have had the opportunity to tour 
two of our joint bases recently: Joint Region Marianas on Guam and 
Joint Expeditionary Base Little Creek-Fort Story in Virginia. Having 
seen firsthand the extraordinary work they are doing, I have confidence 
that our joint base commanders will achieve efficiencies and other 
benefits as their installation support organizations mature.
                      family housing and barracks
    Housing is key to quality of life--in the military no less than in 
the civilian world. The fiscal year 2011 President's Budget request 
includes $1.8 billion for Family Housing. This is a decrease of $436 
million from the fiscal year 2010 enacted level, which largely reflects 
the maturation of our Military Housing Privatization Initiative. Our 
request provides for the continued reduction of inadequate units; for 
operations and maintenance of government-owned housing; and for the 
privatization of more than 500 family housing units, most of them to 
support the Department's Grow the Force initiative.
    The Services have increasingly relied on privatization to address 
the oftentimes poor condition of military-owned housing and the 
shortage of affordable private rental housing available to military 
families. In my view, housing privatization is the single most 
effective reform my office has carried out.
    Privatization allows the Military Services to partner with the 
private sector to generate housing built to market standards. It is 
extremely cost effective. To date, the Military Services have leveraged 
DOD housing dollars by a factor of 10 to 1: $2.7 billion in Federal 
investments have generated $27 billion in privatized housing 
development at Defense installations. The privatized housing is also of 
high quality and often more appealing to young families than what the 
military construction process would produce. Moreover, the private 
owners have an incentive to maintain quality because they are 
responsible for maintenance and operation, including necessary 
recapitalization, during the full 50 years of the contract.

                      COMPARISON OF FAMILY HOUSING
                        [In millions of dollars]
------------------------------------------------------------------------
                                            Fiscal year     Fiscal year
                                           2010 enacted   2011 requested
------------------------------------------------------------------------
Family Housing Construction/Improvements           488.7           356.8
Family Housing Operations & Maintenance.         1,444.0         1,449.0
Family Housing Improvement Fund.........             2.6             1.1
Homeowners Assistance Program...........           323.0            16.0
                                         -------------------------------
      TOTAL.............................         2,258.3         1,822.9
------------------------------------------------------------------------

    The fiscal year 2011 President's Budget request also includes 
funding to reduce inadequate (non-privatized) family housing in the 
United States and at enduring locations overseas. The budget includes 
$34 million for the Army to construct 64 family housing units in 
Baumholder, Germany, and $37 million for the Navy to replace 71 units 
at Naval Station Guantanamo Bay, Cuba.
    The Department is committed to improving housing for its 
unaccompanied Service members, not just its families. The fiscal year 
2011 President's Budget includes $2.3 billion for 57 construction and 
renovation projects that will improve living conditions for 
approximately 17,000 unaccompanied personnel. The Army has also used 
its privatization authorities to improve unaccompanied housing. 
Bachelor officer quarters and senior enlisted bachelor quarters have 
been added to existing family housing privatization projects at Fort 
Bragg, North Carolina; Fort Stewart, Georgia; Fort Drum, New York; and 
Fort Irwin, California. A fifth project is planned soon at Fort Bliss, 
Texas.
    The Navy, too, has used privatization as a tool to improve 
unaccompanied housing--specifically by bringing shipboard junior 
enlisted sailors ashore using a special pilot authority in the fiscal 
year 2003 National Defense Authorization Act (10 U.S.C. 2881a). The 
first pilot project was awarded in December 2006 at San Diego, 
California, and the second was awarded in December 2007 at Hampton 
Roads, Virginia. Both projects have demonstrated that, with authority 
to provide partial Basic Allowance for Housing to single service 
members, privatizing single, junior enlisted personnel housing is more 
cost effective than the traditional Government-owned barracks model.
                     homeowners assistance program
    The Homeowners Assistance Program (HAP) represents a very different 
type of program but one no less important to the quality of life of 
those who qualify. Since 1966, HAP has provided financial assistance to 
military personnel and DOD civilians at locations where home values 
decreased as a result of Defense action. The fiscal year 2011 
President's Budget request includes $17 million for HAP.
    In February 2009, Congress provided $555 million in the American 
Recovery and Reinvestment Act (Recovery Act) to expand HAP to address 
unique economic pressures faced by military personnel who are required 
to relocate during adverse housing market conditions. Congress added 
another $300 million for HAP in the Consolidated Appropriations Act for 
2010.
    HAP seeks to minimize the amount of financial harm--including risk 
of foreclosure, credit damage or bankruptcy--that service member and 
civilian beneficiaries experience when they are compelled to move. As 
of March 3, 2010, HAP has assisted 771 homeowners at a program cost of 
$84 million. Another 4,652 homeowners are currently eligible.
              facilities sustainment and recapitalization
    In addition to investing in new construction, we must maintain, 
repair, and recapitalize our existing facilities. The Department's 
Sustainment and Recapitalization programs strive to keep our inventory 
of facilities in good working order and mission-capable. By providing a 
consistent level of quality in our facilities, we can raise the 
productivity of our personnel and improve their quality of life. The 
fiscal year 2011 budget request includes $9.0 billion for sustainment 
and $4.6 billion for recapitalization (restoration and modernization) 
of our facilities.

             COMPARISON OF SUSTAINMENT AND RECAPITALIZATION
                        [In millions of dollars]
------------------------------------------------------------------------
                                            Fiscal year     Fiscal year
                                           2010 enacted   2011 requested
------------------------------------------------------------------------
Sustainment (O&M & MilPers).............         8,251.0         9,042.0
Recapitalization (O&M, Milcon, Milpers,          6,448.0         4,583.0
 RDTE)..................................
                                         -------------------------------
      TOTAL S & RM......................        14,699.0        13,625.0
------------------------------------------------------------------------

    Sustainment represents the Department's single most important 
investment in the overall health of its inventory of facilities. 
Sustainment includes the regularly scheduled maintenance and repair or 
replacement of facility components--the periodic but predictable 
investments that should be made throughout the service life of a 
facility to slow its deterioration and optimize the owner's investment. 
We use a Facilities Sustainment Model (FSM) based on industry 
benchmarks to estimate the annual cost of regularly scheduled 
maintenance and repair for different types of buildings. We then 
require the Military Departments and Components to fund sustainment of 
their facilities at a level equal to at least 90 percent of the FSM-
generated estimate. Our fiscal year 2011 budget request is consistent 
with that requirement.
    The second key investment we make in the health of our facilities 
is recapitalization (restoration and modernization). Recapitalization 
serves to keep the inventory of facilities modern and relevant in an 
environment of changing missions and standards, to extend the service 
life of facilities, and to restore capability lost due to man-made or 
natural causes including inadequate sustainment. Compared with 
sustainment, recapitalization needs are much harder to forecast because 
they are often a function of change, such as a new functional standard 
for enlisted housing, the availability of new technology (e.g., 
improved technology for heating and cooling), or even a change in the 
very mission that the facility supports. The fiscal year 2011 budget 
request ($4.6 billion) is $1.9 billion lower than the fiscal year 2010 
enacted level primarily because we are nearing the end of the BRAC 2005 
process, which drove a significant amount of recapitalization.
    In the past, the Department used a target recapitalization rate to 
establish an annual investment level for the entire building inventory. 
In recent years our goal was to recapitalize buildings every 67 years. 
However, this approach did not provide information on the condition of 
individual buildings--precisely the kind of information that one should 
use to guide decisions on specific investments.
    Since 2006, the Federal Real Property Council (FRPC) has required 
Federal agencies to rate the quality of individual facilities using a 
Facility Condition Index (FCI). This quality rating, expressed in terms 
of the relationship between what it would cost to replace a facility 
and what it would cost to repair it, allows us to identify those 
facilities in greatest need of investment. By this measure, 18 percent 
of the 539,000 facilities in the Department's inventory are in poor 
condition and another 7 percent are in failing condition.
    Using the facility condition data that DOD is already collecting, 
my staff is developing a new methodology for determining the level of 
investment needed overall and the optimal method of targeting that 
investment. We will consider factors other than just the condition of 
the building--e.g., mission priority. The result will be a capital 
investment plan to eliminate facilities that are in poor and failing 
condition.
    In addition to sustaining and recapitalizing our facilities, we are 
committed to eliminating facilities that we either no longer need or 
cannot repair economically. Demolition is an important tool in any 
recapitalization and will also play a role in our capital investment 
plans. The fiscal year 2011 budget request includes more than $200 
million for this purpose.
                        managing our energy use
    The recently released Quadrennial Defense Review (QDR) makes clear 
that crafting a strategic approach to energy and climate change is a 
high priority for the Department. Although much of the focus has been 
on the energy we use in a combat setting (``operational energy''), the 
management of energy on our permanent installations (``facility 
energy'') is also extremely important. The Energy Conservation 
Investment Project (ECIP) is a key element of the Department's facility 
energy strategy: ECIP supports energy efficiency and renewable energy 
projects based on payback and has achieved an estimated $2.16 in 
savings for every dollar spent. The fiscal year 2011 President's budget 
requests $120 million for ECIP. This is $30 million above our fiscal 
year 2010 request but less than the fiscal year 2010 enacted amount 
($174 million).
    To put ECIP in context, let me briefly discuss why facility energy 
management is so important and what we are doing to improve it.
    The way we manage energy at our permanent installations is 
important for two key reasons. First, facilities energy represents a 
significant cost. In 2009, DOD spent $3.8 billion to power its 
facilities--down from $3.96 billion in 2008. That represents about 28 
percent of the Department's total energy costs (that fraction is higher 
in peacetime, when we are not consuming large amounts of operational 
energy). Moreover, energy needs for fixed installations in the United 
States will likely increase over the next several years as we ``grow'' 
the Army and the Marine Corps, reduce our presence in Iraq and 
Afghanistan, and continue to improve the quality of life for soldiers 
and their families--for example, by installing flat-panel TVs in 
individual rooms in a barracks that now has just one TV per common 
room.
    Facilities energy is costly in other ways as well. Although fixed 
installations and non-tactical vehicles account for less than a third 
of DOD's energy costs, they contribute nearly 40 percent of our 
greenhouse gas emissions. This reflects the fact that our installations 
rely on commercial electricity, which comes from fossil fuels--
principally coal. Given that facilities energy as a share of total DOD 
energy will increase when we reduce our presence in Iraq and 
Afghanistan, fixed installations will likely become DOD's major source 
of greenhouse gas emissions.
    Second, installation energy management is key to mission assurance. 
According to the Defense Science Board, DOD's reliance on a fragile 
commercial grid to deliver electricity to its installations places the 
continuity of critical missions at serious and growing risk.\1\ Most 
installations lack the ability to manage their demand for and supply of 
electrical power and are thus vulnerable to intermittent and/or 
prolonged power disruption due to natural disasters, cyber attacks and 
sheer overload of the grid.
---------------------------------------------------------------------------
    \1\ ``More Fight-Less Fuel,'' Report of the Defense Science Board 
Task Force on DOD Energy Strategy, February 2008.
---------------------------------------------------------------------------
    Over the last 5 years, the Department has steadily reduced energy 
consumption per square foot at our permanent installations, largely in 
response to statutory and regulatory goals. While continuing that very 
positive trend, it is time for us to adapt our approach to installation 
energy management from one that is primarily focused on compliance to 
one that is focused on long-term cost avoidance and mission assurance.
    In the last year, the Department has made energy policy a 
significantly higher priority. First, Secretary Gates has expressed his 
strong support for the goal of reducing energy consumption, and the QDR 
reflects his desire for a more strategic approach to energy security. 
As one indication of this commitment, the Department recently announced 
that, under Executive Order 13514, it will reduce greenhouse gas 
emissions from non-combat activities--largely installations and non-
tactical vehicles--by 34 percent by 2020. Since greenhouse gas 
pollution is due overwhelmingly to direct energy use, this aggressive 
target, along with DOD's High Priority Performance Goals, will require 
major gains in energy efficiency at our installations.
    Second, the Department is investing more to improve the energy 
profile of our fixed installations. Financing for these investments has 
come from annually appropriated funds, including military construction, 
operations and maintenance, and ECIP. We have utilized third-party 
financing through Energy Savings Performance Contracts and Utilities 
Energy Service Contracts. We are also pursuing other innovative 
financing mechanisms, such as Enhanced Use Leases and Power Purchase 
Agreements (PPAs).
    Our basic investment strategy is twofold: (1) Reduce the demand for 
traditional energy through conservation and energy efficiency; and (2) 
increase the supply of renewable and other alternative energy sources. 
Investments that curb demand are the most cost-effective way to improve 
an installation's energy profile. As Department of Energy (DOE) 
Secretary Steven Chu has observed, ``Energy efficiency is not just the 
low hanging fruit; it's the fruit lying on the ground.''
    A large percentage of our demand-side (energy efficiency) 
investments are expended on projects to retrofit existing buildings. 
The Department spends almost $10 billion a year to sustain, restore and 
modernize our facilities. About one-sixth ($1.7 billion) of this is 
spent on projects designed directly to improve energy efficiency. 
Typical projects install improved lighting, high-efficiency HVAC 
systems, double-pane windows, energy management control systems and new 
roofs. As we replace major components and subsystems in our buildings, 
the newer, more energy-efficient systems contribute to DOD's overall 
energy reduction goals.
    In addition to retrofitting existing buildings, we are taking 
advantage of new construction to incorporate more energy-efficient 
designs, material and equipment into our inventory of facilities. The 
Department spent about $25 billion on military construction in fiscal 
year 2009 and we will devote another $23 billion to construction in 
fiscal year 2010. (As discussed earlier, we are asking for $18.7 
billion for Milcon in fiscal year 2011.) New construction must meet 
Leadership in Energy and Environmental Design (LEED) Silver standards 
and/or the five principles of High Performance Sustainable Buildings, 
which includes exceeding the energy efficiency standard set by the 
American Society of Heating, Refrigerating and Air-Conditioning 
Engineers by at least 30 percent.
    On the supply side, our military installations are well situated to 
support solar, wind, geothermal and other forms of renewable energy. As 
you know, we have the second largest solar array in North America at 
Nellis Air Force Base in Nevada. Additionally, the geothermal plant at 
Naval Weapons Center at China Lake, California, is providing 
electricity to the State's electrical grid; hydrogen fuel cells provide 
back-up power for facilities at Fort Jackson, South Carolina; and the 
Marines will test a wave power program at Kaneohe Bay, Hawaii, in the 
near future.
    The Department took advantage of the $7.4 billion it received 
through the Recovery Act to invest in both energy efficiency and 
renewable energy projects. We devoted $2 billion of that amount to 
projects designed to improve existing buildings, largely through 
upgraded systems and equipment. Of that, $120 million went to ECIP. 
Another $1.6 billion of Recovery Act funds is going to construct new 
facilities, all of which will meet LEED Silver standards and/or the 
five guiding principles of High Performance Sustainable Buildings.
    Finally, our military installations can play a valuable role as a 
test bed for next generation technologies coming out of laboratories in 
industry, universities and the Department of Energy. DOD's built 
infrastructure is unique for its size and variety, which captures the 
diversity of building types and climates in the United States. For a 
wide range of energy technologies, DOD can play a crucial role by 
filling the gap (the ``valley of death'') between research and 
deployment. As both a real and a virtual test bed, our facilities can 
serve as a sophisticated first user, evaluating the technical validity, 
cost and environmental impact of advanced, pre-commercial technologies. 
For technologies that prove effective, DOD can go on to serve as an 
early customer, thereby helping create a market, as it did with 
aircraft, electronics and the Internet. This will allow the military to 
leverage both the cost savings and technology advances that private 
sector involvement will yield.
    We are pursuing the energy test bed approach on a small scale 
through the Environmental Security Technology Certification Program 
(ESTCP). Using $20 million in Recovery Act funding, ESTCP awarded 
contracts through a competitive solicitation to nine projects to 
demonstrate technologies that will provide for increased energy 
efficiency or that will generate cost effective renewable power on 
site. For example, one ESTCP project team is conducting a multi-site 
demonstration of building-integrated photovoltaic roof concepts. By 
verifying that an energy efficient roof can perform its expected 
function, DOD can increase its capacity to generate renewable energy. 
The Naval Facilities Engineering Command leads this project in 
collaboration with Lawrence Berkeley National Laboratory. 
Demonstrations are taking place at Luke Air Force Base and Marine Corps 
Air Station Yuma, both in Arizona, and Naval Air Station Patuxent River 
in Maryland.
    The test bed approach is key to meeting the Department's needs, but 
it is also an essential element of a national strategy to develop and 
deploy the next generation of energy technologies needed to support our 
built infrastructure. We hope to expand it, working closely with the 
Department of Energy and other agencies and organizations.
    The Department is pursuing several other initiatives to address 
specific challenges or impediments to improved installation energy 
management. Let me briefly describe two of them.
    First, we have begun what will likely be a major effort to address 
the risk to our installations from potential disruptions to the 
commercial electric grid. The Department is participating in 
interagency discussions on the magnitude of the threat to the grid and 
how best to mitigate it. We are also looking at how to ensure that we 
have the energy needed to maintain critical operations in the face of a 
disruption to the grid. As required by the National Defense 
Authorization Act, the Secretary of Defense this year will give 
Congress a plan for identifying and addressing areas in which 
electricity needed for carrying out critical military missions on DOD 
installations is vulnerable to disruption. The development of renewable 
and alternative energy sources on base will be one element of this 
effort, because--in combination with other investments--these energy 
sources can help installations to carry out mission-critical activities 
and support restoration of the grid in the event of disruption.
    Second, we are devoting considerable time and effort to a complex 
and growing challenge--ensuring that proposals for domestic energy 
projects, including renewable energy projects, are compatible with 
military requirements for land and airspace. As noted above, military 
installations lend themselves to renewable energy development, and a 
renewable project can benefit the host installation by providing a 
secure source of energy and reduced energy costs. In some cases, 
however, a proposed project can interfere with the military mission. 
For example, wind turbines can degrade air- and ground-based radar, and 
solar towers can cause interference by creating thermal images 
detrimental to sensitive testing of weapons systems. The current 
process for reviewing proposals and handling disputes is opaque, time 
consuming and ad hoc.
    The Department is working to balance the Nation's need for 
renewable sources of energy with military mission needs. The DOD 
``product team'' devoted to sustaining our test and training ranges, 
which I co-chair, is working to come up with a better process for 
evaluating proposals from energy developers who want to site a 
renewable project on or near an installation. We have begun to reach 
out to potential partners, including other Federal agencies, energy 
developers, State and local governments, and environmental 
organizations. In addition to working to improve the current approval 
process, the Department is looking at the role of research and 
development. New technology can allow us to better measure the 
potential impact of a proposed project. It can also help to mitigate 
the impact. For example, recent press accounts suggest that 
developments in stealth technology as applied to turbine blades can 
reduce the harm to ground-based (but not air-based) radar.
                               conclusion
    My office, Installations and Environment, takes very seriously our 
mission to strengthen DOD's infrastructure backbone--the installations 
that serve to train, deploy and support our warfighters. Thank you for 
your strong support for the Department's installation and environment 
programs, and for its military mission more broadly. I look forward to 
working with you on the challenges and opportunities ahead.

    Senator Hutchison. Thank you. I think that we are making 
remarkable progress on BRAC, by the way, and that we are so 
close. It is very good and we fully funded. This subcommittee 
made that a priority.
    Dr. Robyn. Yes.
    Senator Hutchison. So thank you.
    Mr. Mitchell?
    Mr. Hale. Mr. Mitchell does not have a statement. He is 
just here to help us answer questions on Guam policy.
    Senator Hutchison. Okay, good.
    I am going to let my colleagues go first on the questions, 
and then I will follow up. I do not know who was here first.
    Senator Collins. Thank you. Thank you, Madam Chairwoman. 
Does that not sound good again?
    Senator Hutchison. It is very fleeting.
    Senator Collins. Let me first commend you and the 
subcommittee's chairman for working so well as a team. I could 
not help but think, as the chairman departed, that he was 
totally comfortable turning over the gavel to you. And while I 
hope that is a sign of things to come, I was impressed with how 
closely you worked together for the good of the military.

                        CLOSURE OF NAS BRUNSWICK

    Dr. Robyn, I want to direct my questions this morning to 
you. The State of Maine is coping with the imminent loss of a 
major defense installation, the Brunswick Naval Air Station in 
Cumberland County. The squadrons and most of the military 
personnel have already departed, and the base is scheduled to 
close its doors next year. The number of jobs lost is estimated 
by the Pentagon, direct and indirect jobs, to be more than 
6,500. On the list that was prepared for the Base Closure 
Commission, Maine was ranked fifth in the Nation in the number 
of jobs that would be lost as a result of the BRAC decisions.
    So this is a very difficult economic blow for the State of 
Maine, for the Brunswick region in particular. And as you can 
appreciate, the recession makes the redevelopment of this base 
even more challenging than it otherwise would be.
    To help compensate for these negative impacts, last year as 
a member of the Armed Services Committee, I worked very hard to 
include a critical provision in the defense authorization bill 
that would help to accelerate the transfer of excess military 
property at a reduced cost or even no cost when it is for 
economic development. It is my understanding that you and your 
office are now working on the regulations to implement those 
provisions.
    Could you first give us an update on the status of those 
regulations? There is concern in Maine about when they are 
going to be issued. The prime time for economic development 
activity in my State is coming up right now. So could you first 
give us an update on that?

                    ECONOMIC DEVELOPMENT CONVEYANCE

    Dr. Robyn. Sure. I took a real interest in the economic 
development conveyance mechanism. I worked in the Clinton White 
House during the BRAC rounds in the 1990s. We worked with the 
Congress then to create the EDC mechanism, and it has gone 
through various iterations.
    Prior to the action of the Congress in the last defense 
bill, the EDC mechanism had become very slow and cumbersome. 
The services were required to seek to obtain fair market value. 
The valuation process was a very cumbersome one. So Congress 
gave us clarification and some new authority that freed the 
services from having to seek to obtain fair market value. You 
also gave us additional flexibility to use some innovative 
mechanisms such as back-end participation so that if a 
development does well, the Defense Department can take much or 
most of its compensation on the back end.
    First of all, let me say that as soon as that law took 
effect, those provisions were in effect. Even before I put out 
regulations, the new law is in effect. It replaced the old law 
saying the services had to seek to obtain fair market value. So 
the law took effect immediately. I put out a memo to the 
services giving some policy direction. I am working closely 
with them to get the regs out and also too so that even before 
the regs are out, that they are adopting the new approach, 
which I think they are.
    So I think we have already seen some response. Treasure 
Island. The city and the Navy negotiated an agreement on 
Treasure Island. They had been unsuccessful in doing that over 
many years, and with the clarity that you all provided, they 
were able to reach an agreement that provided for back-end 
participation.
    I do not know enough about the details of Brunswick to know 
what sort of an EDC that will be, but I think we have changed 
course in response to the direction from Congress and I am 
watching it closely.
    Senator Collins. Thank you. I know my time is almost 
expired. So let me just say that I will ask you to work very 
closely with the local redevelopment authority in Maine. This 
is going to be a tremendous challenge, and it is going to be 
important that the Department factor in local economic 
conditions and a lot of flexibility as we have given you.
    Dr. Robyn. Yes.
    Senator Collins. And I look forward to working closely with 
you.
    Dr. Robyn. Thank you.
    Senator Collins. Thank you.
    Thank you, Madam Chairman.
    Senator Hutchison. Senator Pryor.
    Senator Pryor. Thank you, Madam Chair.

                     OFFICE OF ECONOMIC ADJUSTMENT

    Dr. Robyn, let me ask you a few questions. In the first 
question or two, I want to ask about the OEA, the Office of 
Economic Adjustment. We have the Pine Bluff arsenal in Pine 
Bluff, Arkansas, which is doing a destruction of all of its 
chemical stockpile. Later this year, they are going to lose 
about 1,100 jobs. There are 350 Government employees, about 750 
contractors.
    My question is, knowing that and knowing that is coming 
this year, what should the OEA be doing for Pine Bluff right 
now?
    Dr. Robyn. Well, I believe the OEA is working with Pine 
Bluff. My understanding is they awarded a small grant last 
month, a little over $600,000, and they waived most of the 
local match requirement. I think the OEA staff was down there 
recently. I am told that the State of Arkansas is not going to 
apply to the Department of Labor for a national emergency grant 
to provide support workforce assistance. I am not sure what the 
rationale for that is.
    But OEA is a wonderful organization. I am very proud to 
have it part of what I oversee now. OEA was created by Robert 
McNamara in the 1960s. They have done a terrific job over the 
years and can provide a lot of planning and technical 
assistance to communities like Pine Bluff that are going 
through this sort of transition.
    Senator Pryor. Do you know if the OEA is working on trying 
to get more mission there to the Pine Bluff arsenal?
    Dr. Robyn. To get other DOD activity? Not that I am aware 
of. That is typically not part of what OEA does.
    Senator Pryor. Okay. When you add it all up, there is going 
to be an economic impact of about $100 million annually to Pine 
Bluff and that area. My sense is, in talking to people in Pine 
Bluff and that area--they have kind of a regional chamber of 
commerce--is that they are not real happy with the efforts that 
OEA has made. So why do you and I not follow up at some point 
and see if we can get a little more attention down there and 
see if we can find some good things for them to do?
    Dr. Robyn. Okay.
    Senator Pryor. Another question I have for you, Dr. Robyn, 
is my understanding is that the National Guard Bureau had 
provided a list of over 100 unfunded priorities and shovel-
ready projects that total up to about $1.2 billion total. My 
understanding is that in the stimulus money, et cetera, the 
Recovery Act, most of these requests, maybe not all, but almost 
all were ignored. Were you aware of that? And do you know the 
situation on that?
    Dr. Robyn. Are you speaking of National Guard projects 
generally?
    Senator Pryor. Yes, National Guard projects that were 
shovel-ready.
    Dr. Robyn. I do not have the figures with me. We did some 
Guard projects. I do not know the number. I will take that for 
the record.
    [The information follows:]

    The American Recovery and Reinvestment Act of 2009 (Recovery Act), 
Public Law 111-5 includes approximately $7.4 billion in Defense-related 
appropriations. Within division A of the Recovery Act, titles III and X 
provided $292 million ($266 million Army National Guard and $26 million 
Air National Guard) and $100 million ($50 million each to Army National 
Guard and Air National Guard) in specific operations and maintenance 
(O&M) and military construction (Milcon) authorization and 
appropriations to the Army and Air National Guard, respectively. To 
provide the required reports to Congress identifying the specific 
projects funded under the Recovery Act, the Department asked each 
component receiving funds to provide a list of projects within the 
amounts they received that would create and save jobs, jumpstart our 
economy, address unfunded facility requirements, build the foundation 
for long-term economic growth, improve the condition of facilities 
needed to house members returning from Iraq and Afghanistan, and 
enhance energy efficiency throughout the Department. The Army and Air 
National Guards complied with this guidance, providing 930 O&M and 
Milcon projects within the amounts they were authorized and 
appropriated.

    Senator Pryor. Yes. Just for you to think about, at the 
Senate Armed Services Committee hearing in February, just a 
month ago or less, Secretary McHugh stated: ``As to the 
distribution of Milcon, certainly if I were in a Guard or 
Reserve unit, I'd feel as though I wasn't getting what I 
needed, and we have to admit that.'' So I think that there is a 
recognition, at least in some quarters, that there are a lot of 
shovel-ready projects that need to be prioritized when it comes 
time to look at funding these type projects.
    And the third thing I had--and this may be the last because 
I am almost out of time here--is Little Rock Air Force Base is 
the Center of Excellence for the C-130 operations and basically 
every C-130 pilot almost in the world, it seems like, comes to 
Little Rock to do their training. And we have three wings 
there. One is a Guard wing and two are active duty. Anyway, 
they do great work there.
    But right now, they have 92 aircraft on the ramp. The 
fiscal year 2011 budget transferred an additional 12 C-130s to 
Little Rock, which totals 104. And my understanding is a few of 
those will be taken out because they are C-130 E models and it 
is time for them to move on. But still, they are going to end 
up with about 100 aircraft there.

                       LITTLE ROCK AIR FORCE BASE

    I remember when we were talking about BRAC a few years ago 
and also last year or the year before, we were working on a C-
27J project. One of the things about Little Rock Air Force Base 
is it only has one runway. And I am wondering if you might be 
willing to initiate a site survey for Little Rock Air Force 
Base to look at the feasibility of doing a second runway there. 
I know they have plenty of real estate, and I have seen the 
maps before and I think they would have plenty of room to do 
it. But I was wondering if you would initiate or work with us 
to try to initiate a site survey to look into the possibility 
of a second runway there at Little Rock Air Force Base.
    Dr. Robyn. Sir, I think I am going to defer that question 
to my Air Force colleague, who will be on the panel behind me. 
It is easy for me to say yes, but I do not want to preempt my 
Air Force colleague.
    Senator Pryor. Sure.
    Secretary Hale.
    Mr. Hale. Could I just add to that? I think we would want 
to consider that and the broader issue of basing the C-27s. As 
you are well aware, we are limited to procuring the 38, and 
there are some important basing issues that still remain to be 
resolved. It probably needs to be considered in that context.
    Senator Pryor. Right, yes. And the C-27s may be a secondary 
issue at this point in how you do that. Certainly Little Rock, 
I think, makes sense, but with regard to more C-130s in the 
future maybe coming there and you have 100 on the ramp. After 
fiscal year 2011, I think it may be time to look at that. So if 
we could maybe work together on that site survey, at least for 
you all to look at it and do the analysis, I would appreciate 
it.
    Thank you, Madam Chair.
    Senator Hutchison. Senator Murkowski.

                       HOUSING AT FORT WAINWRIGHT

    Senator Murkowski. Thank you, Madam Chairman.
    Dr. Robyn, a couple relatively parochial questions here 
this morning, and then I would like to ask a question about the 
port in Guam.
    First is with regard to a partnership that the Army entered 
into with Actus Lend Lease at Fort Wainwright for privatization 
of housing. We have had some issues up north there with local 
contractors that have expressed some very serious concern that 
Actus Lend Lease was bringing in out-of-State contractors, thus 
displacing the local contractors. There were field hearings 
that were conducted by the legislature. There was a community 
advisory board that was later established. But it really was 
very contentious for a period of time, and our offices were 
very involved in trying to smooth things out.
    My question to you is--we were essentially told that the 
laws governing private housing contracts allow the Army's 
partner to contract with whomever they want.
    I guess the question that I have is whether or not you 
think that it is good policy to encourage housing privatization 
partners to use local contractors and local construction 
workers for the projects, or would it be fair to say that you 
are really indifferent on this? I cannot imagine that this is 
just an issue that is specific to Fairbanks, Alaska. Help me 
out a little bit on this.
    Dr. Robyn. Well, I have spent a lot of time telling people 
how wonderful housing privatization is. I think it is the most 
effective reform my office has taken on. I honestly have never 
come across this issue. So I cannot give you a good----
    Senator Murkowski. So you think our situation up north is 
unique?
    Dr. Robyn. I just do not know. I have been on the job 9 
months, and it may be that I just do not know about it. So I 
cannot give you a good answer. I think my Army colleague may be 
able to shed more light, but I would like to take the question 
for the record.
    Senator Murkowski. Well, I would appreciate if you would do 
it because as we look to the impact, of course, the economic 
impact that these projects bring to an area, I think it is fair 
to say that people look at them with great interest because 
they believe that not only will the military see a good benefit 
there, but the local economy will engage as well. And I think 
we have seen some real concerns where you bring the out-of-
State guys in. They are there for the length of the project. 
They are gone and there is no real commitment to the community. 
So if you could look into that, I would appreciate it.

            UNDOCUMENTED WORKERS AT ELMENDORF AIR FORCE BASE

    The second question. This was regarding a project at 
Elmendorf Air Force Base last year, and acting on a tip from 
the iron workers unions, there were some immigration and 
customs officers that came in to interview employees of an Air 
Force construction project. This was a contract for building 
hangars. Four of 30 individuals interviewed were determined to 
be not lawfully eligible to work here in the United States. One 
was determined to have a criminal history in the State of 
California. I think we all recognize that our Air Force bases 
are supposed to be secure areas, and yet this was a pretty 
specific example of not only people who were not eligible to 
work here in the country and getting into the gate to do the 
work, but also of an employee with a criminal record.
    I have a couple questions. First, whether or not the 
contractor was disciplined for placing undocumented workers on 
an Air Force job site, and more broadly, what the 
administration is doing to ensure that these construction jobs, 
which are scarce and coveted most certainly, that are available 
on our military bases are going to people that are legally 
entitled to work here in the country.
    Dr. Robyn. Again, my Air Force colleague on the next panel 
may have more detail. I know the four were arrested through a 
joint effort by immigration and Air Force agents. They used 
counterfeit documents. I think we are using this as a learning 
experience to improve our clearance--approach to security. I do 
not know if the contractor was disciplined or not. It is hard 
to believe they were not because my understanding is this was a 
contractor from California that went up to Alaska and took 
workers with them. So it would seem like they were liable. But 
I do not know the specifics.
    Senator Murkowski. Well, if you can get more clarification 
for me on that, again I would appreciate it.
    And then the last question relates to the buildup on Guam. 
As the ranking member on the Energy Committee, one of our areas 
of jurisdiction and oversight responsibility is for the 
Government's relationship with our territories. I understand 
that the Port of Guam was recently denied a $50 million grant 
from USDOT to kick start the port's $200 million modernization 
program.

                       IMPROVEMENTS TO GUAM PORT

    Are you concerned about the status of the port's 
modernization? What steps are being taken to ensure that we are 
securing the needed funding for the port modernization effort?
    Dr. Robyn. Yes. There were $1 billion in stimulus money for 
TIGER grants allocated by the Department of Transportation, and 
they were heavily oversubscribed. There was a huge demand for 
those, and Guam did not make the cut. It was a large 
application, $50 million. The nice thing was it would have been 
matched by a $50 million loan from the U.S. Department of 
Agriculture.
    We are scrambling throughout the Federal Government, those 
of us who work on Guam, to address that issue so that we can 
try to preserve the USDA commitment to match----
    Senator Murkowski. So what do you figure the path forward 
will be?
    Dr. Robyn. Well, it is a little premature for me to say, 
but I think we recognize that the port needs to be upgraded to 
accommodate the buildup. It is a shared responsibility within 
the Federal Government. So we are looking at--the Department of 
Defense has very limited mechanisms for doing unauthorized--we 
cannot do unauthorized military construction. So we do not have 
the authority to do this even if we wanted to. We are looking 
at mechanisms, though, that would allow for a cross-Government 
acceptance of this responsibility because this is step one in 
the buildup.
    Senator Murkowski. It sounds like you are equally concerned 
and recognize the level of priority there.
    Dr. Robyn. Yes, absolutely.
    Senator Murkowski. Thank you, Madam Chair.
    Senator Hutchison. Thank you.
    Let me start on the Milcon for Europe. The $513 million in 
Germany and in Korea, the Department is looking at tour 
normalization, which means extending the average tour length 
and allowing more dependents to accompany their sponsors.

                       OVERSEAS BASING COMMISSION

    I just want to ask why is the Department undoing the 
Congress' authorization bill that included the Overseas Basing 
Commission, the previous commitments to bring home 70,000 
troops, mostly from Germany and Korea. This was a bill--
Overseas Basing Commission was cosponsored by Senator Feinstein 
and myself when we ran this subcommittee.
    It just seems that you are changing a policy that was 
established by Congress, and I would like to know what is the 
reason for this kind of commitment and the cost of $2 billion 
to American taxpayers for this kind of building in Germany and 
Korea.
    Mr. Hale. Well, Madam Chairwoman, let me try to be helpful 
by saying, first, I do not think it is our intention to undo 
congressional guidance or not to follow it.
    We are committed to some level of overseas deployment of 
our troops, but we are looking at those specifics. The QDR, I 
think, arrived at a broad policy but did not arrive at some of 
the specifics that I know are of particular interest to you, 
especially whether or not we will bring home--or how many BCTs 
we will bring home from Europe. We decided that we needed some 
more negotiation with our allies before making that decision 
and, therefore, put it off. We expect to make a recommendation 
in the fiscal year 2012 budget as opposed to this budget.
    As far as Korea, we----
    Senator Hutchison. Excuse me. Then are you saying that the 
$513 million does not include the extension of two more BCTs?
    Mr. Hale. To my knowledge, it does not make that commitment 
because we have not made that decision.
    Actually I looked at it. Our total overseas military 
construction is down sharply between 2010 and 2011 from $3.1 
billion to $2.1 billion. But you are right. There are some 
increases in Germany, I think, associated with the Wiesbaden 
consolidation. But we have not made a decision as to whether or 
how many BCTs to bring home. Those will be, I believe, a 
commitment to reflect that decision in the fiscal year 2012 
budget.
    On Korea, we have approved the first phase of tour 
normalization, which is a fairly modest price tag, but are 
continuing to look at the second and third phases, which would 
be much more substantial in cost. I think part of the issue, as 
you raise, is that we have to assess what is our long-term 
commitment in Korea. I anticipate it will remain a commitment, 
but how large has to be a question.
    Senator Hutchison. What is your policy as comptroller on 
the contribution of host countries such as Germany and Korea? 
And what would you be asking them to contribute for these 
specific requests?
    Mr. Hale. I do not think we have a percentage policy. We 
always like contributions from our allies. I do not have for 
you the percentage contributions of the Germans in terms of the 
current overseas military construction. My sense is the Germans 
have been very helpful in paying operating costs. I am not sure 
on the military construction. I will have to supply that for 
the record.
    We would like a substantial contribution. I think that is 
inevitably negotiated on a case-by-case basis.
    Senator Hutchison. I would like, before we come forward 
with our recommended military construction appropriations 
report, to know what is the German and Korean contribution to 
the requests that are being made.
    Mr. Hale. We will supply that.
    [The information follows:]

    The Republic of Korea (ROK) is not making any contribution to 
projects included in the fiscal year 2011 Milcon request. Rather, the 
ROK contributes to U.S. construction requirements through a formal 
burden sharing agreement, where construction is one component of that 
agreement.
    In the year 2009, a 5-year burden (cost) sharing agreement was 
signed with the ROK. In force through the year 2013, the agreement is 
formally called the Special Measures Agreement (SMA). Under the 5-year 
SMA, ROK burden sharing contributions occur in three separate 
categories: labor, logistics, and construction. The ROK is providing 
790.4 billion won ($749.9 million) in burden sharing contributions 
during calendar year 2010--an increase of 30.4 billion won from the 760 
billion won provided in calendar year 2009. Within these two totals, 
315.8 billion won ($299.6 million) and 292.2 billion won ($228.9 
million) is for construction in calendar years 2010 and 2009, 
respectively. In calendar year 2011, the ROK's total burden sharing 
contribution will be 812.5 billion won ($829 million). It is expected 
that the portion of this total 2011 contribution devoted to 
construction will be around $326 million.
    In addition, the ROK funds most of the cost of relocating U.S. 
forces from Seoul under the Yongsan Relocation Plan (YRP). Further, ROK 
Funded Construction funding, provided under the Special Measures 
Agreement, is being used to the maximum extent to implement the Land 
Partnership Plan (LPP), which consolidates and relocates all other 
forces in Korea. The YRP and LPP realignment initiatives--currently 
underway--will result in better facilities and improved quality of life 
for USFK personnel, create enhanced warfighting capabilities, and 
demonstrate the commitment of the United States to an enduring military 
presence on the Korean Peninsula that will promote peace and stability 
on the peninsula and in the region.
    The Government of Germany is not making any direct contribution to 
projects included in the fiscal year 2011 Milcon request. The United 
States has no formal infrastructure-related burden sharing agreement 
with Germany. However, through their participation in NATO and the NATO 
Security Investment Program (NSIP), Germany may ultimately share a 
portion of Milcon costs for the Air Traffic Control Tower in NAS Rota 
and the Hydrant Fuel Project in RAF Mildenhall. If NATO determines 
these projects to be eligible for common funding, 17 percent of any 
NSIP recoupment the United States receives could be accurately 
characterized as a German contribution. These projects have been pre-
financed in accordance with DOD and NATO guidance in anticipation of 
potential future recoupment. (The requested SHAPE school and NATO HQ 
projects represent the U.S. portion of those projects and there will be 
German and other national contributions.)
    While Germany makes no direct contributions to the U.S. Milcon 
program, they make significant non-financial contributions in support 
of U.S. interests. In accordance with the terms of the SOFA, the United 
States executes the majority of our Milcon in Germany through the 
German Bauamt. Because Bauamt fees are significantly lower than those 
charged by the Corps of Engineers, use of these services reduces the 
direct cost of design, procurement, and construction management 
activities by roughly 65 percent. In fiscal year 2011, this indirect 
contribution equates to approximately $30 million.
    In addition, Germany bears approximately 25 percent of the direct 
costs for items such as rents on privately owned land, facilities, 
labor, utilities, and vicinity improvements in support of Germany-based 
United States forces. Further, Germany has assisted United States force 
presence in the facilities area through host nation funding of nearly 
$1 billion to date in facilities constructed as Payment in Kind 
compensation for U.S.-funded improvements at facilities returned to the 
host nation. Other indirect contributions include loan guarantees to 
public private venture housing, non-imposition of certain taxes/fees, 
and rent free use of land for basing and training.

    Senator Hutchison. Was there a business case analysis 
prepared that justified retaining four BCTs in Europe?
    Mr. Hale. I am not aware of a business case. I am aware of 
considering that in light of our overall desire for overseas 
deployment, some of which aid our ability, for example, to 
fight in Iraq and Afghanistan. We are drawing heavily on those 
troops. Especially in the beginning, we drew heavily on troops 
deployed in Germany. So I think it is a foreign policy 
decision, and one that is taken in the context of the QDR. But 
as I said, we decided not to make the specific decision this 
year. We wanted further negotiations with our allies.
    Senator Hutchison. Well, I would like to ask you also to 
submit for the record whether it is, in fact, more efficient to 
deploy from Germany into Iraq and Afghanistan as opposed to 
from the United States because there were severe restrictions 
placed on transferring troops into Iraq in the early stages of 
that buildup. And it caused delays and it even caused having to 
use, in some cases, paratroopers as opposed to trains and even 
air flights. So I think that has to be considered, and I want a 
report on that because I think it is a factor.
    [The information follows:]

    There is no single answer to whether it is more efficient to deploy 
from CONUS or Europe. There are many ways to define deployment 
efficiency including time, fuel usage, manpower, transport demand, and 
diplomatic challenges. For instance, Germany may be more efficient for 
airlift but may not be for sealift.
    To be clear, Germany placed no practical impediments or hindrances 
on United States deployment to Iraq and Afghanistan. In fact, Germany 
provided guards for United States bases to free up personnel for 
deployment.

                                  GUAM

    Senator Hutchison. Okay, let us talk about Guam. I 
appreciate your statements, Dr. Robyn, but I think there are 
significant questions and certainly significant cost increases 
on the horizon for this move on Guam. The report in the news is 
that the Governor of Guam has said he needs $3 billion in 
assistance before we spend $13 billion on military 
construction.
    I would just ask the question because this is going to 
significantly increase the cost to American taxpayers. Japan 
has agreed to fund a significant portion of this move, I think 
around $7 billion, which I think is very helpful. But the rest 
would then, of course, fall on the American taxpayer.
    Are you looking at alternatives at all that would be more 
efficient than this entire move to Guam? Is there any 
alternative even being considered. With the size of the island 
and the infrastructure not being adequate, are there other 
alternatives that we ought to be looking at?
    Dr. Robyn. I am going to defer to my colleague, Derek 
Mitchell, on this one.
    Mr. Mitchell. Okay. Thank you, Senator.
    In fact, this process has been going on for about 15 years 
since the mid-1990s looking at alternatives for moving the 
Marine base in Okinawa to another location. So basically a host 
of alternatives have been looked at by the U.S. Government in 
cooperation with the Government of Japan for that period.
    Right now, the Government of Japan, the new Government of 
Japan, is looking at this very question of are there viable 
alternatives from their perspective. That review is ongoing. We 
respect that review in the U.S. Government, and we are waiting 
for them to come up with their version and their view.
    We believe the current is the best. We really have looked 
at a number of different options.
    Senator Hutchison. ``Current'' meaning the move to Guam or 
staying in Okinawa?
    Mr. Mitchell. Well, moving the Marine base, the Futenma 
base, up to the north of Okinawa and then some of the marines 
back to Guam. That really is the best.
    Senator Hutchison. A fewer number than the 8,000?
    Mr. Mitchell. No the current plan, 8,000 to Guam and 10,000 
up to the north of Okinawa. We looked at a number of different 
permutations and options over truly 10-15 years and continue to 
respect the process that the Government of Japan is undergoing 
right now. So yes, the answer to your question is we have 
looked at alternatives, but we still believe this is the best.
    Dr. Robyn. Can I just say that, of course, we are not going 
to move any marines from Futenma until we have an agreement--or 
until there is clarity on where they are going. But having said 
that, Guam is--there has never been an issue that Guam is of 
vital, strategic importance and a good place to expand our 
military presence. It is U.S. territory. It is one of a number 
of islands. It provides real strategic benefits.
    Senator Hutchison. Well, I would just submit that in the 
time that you say we have been looking at this, certainly the 
infrastructure is worse than we had predicted and costs have 
certainly gone up. So I just think it is worth another look at 
whether this island can accommodate this kind of influx and if 
it is the very best move that we could make. But I realize that 
options are probably few in this part of the world.
    I mean, Korea would be--the move south in Korea I know is 
certainly part of our overall strategy, which is correct, 
because it will provide forward basing opportunities. I mean, 
speaking of Korea, I still question how many troops and now 
even an added element in Korea of longer tours and more 
families, which increase costs. I am going to probably want to 
look at that more carefully as well, just how much more we are 
going to do in Korea. We do need to get out of the base in 
Seoul and move south, and that is in our interest as well as 
Korea's. But we have certainly kept a presence there for longer 
than was necessary by far.
    And I just think we have got to start looking at the money 
that we are spending overseas and is it better to have 
permanent bases in America where you do not have training 
constraints and you do not have urban buildup and it is a more 
stable environment for our families. So I would like to pursue 
that with anyone who is willing to answer, or do I need to go 
to other policymakers for those thoughts?
    Mr. Mitchell. I appreciate those sentiments, Senator. Let 
me just say from the strategic standpoint--I am in the policy 
division of the Pentagon. And there really is a strategic 
value, as you suggest, on the forward deployment of U.S. 
forces. It has a tremendous impact on the commitments that we 
continue to have to our allies, to our strategic position in 
Asia. It gives us an advantage as well. So I understand the 
costs and the difficulties of working with foreign local 
communities, et cetera. There are challenges. There are 
complications involved. But the strategic advantage in our 
relationships and preferred diplomatic engagement that we get 
from the deployment, our ability to engage other forces, to 
interact with them, to mix with them, to train does have a 
great strategic impact for the United States overall even if 
there may be some constraints placed on them.

                         MOVING MARINES TO GUAM

    Senator Hutchison. Have you looked at whether it would be 
more efficient to move some of the Guam marine base personnel 
to Korea and consolidate there rather than the added 
infrastructure and the coral reef issue at the port? There are 
so many issues that are coming up now that had not been there 
before. Are you looking at whether perhaps that Marine base or 
part of it would be more efficiently put as a forward 
deployment opportunity in Guam?
    Mr. Mitchell. Well, we have looked at----
    Senator Hutchison. I mean in--I am sorry--Korea.
    Mr. Mitchell. In Korea. As I say, over a long period of 
time, we looked at various options, and this is, as you say, a 
very complicated, complex issue and there will be challenges to 
put forces in Korea as there would be other places. You know, 
this is a fluid situation. I mean, the American presence in 
Asia has been--well, we have been there since World War II and 
we have been quite flexible in how we postured ourselves. We 
continue to review our posture in Asia and East Asia. We think 
Guam, though, is quite a strategic location. It is, as you 
suggest, a U.S. territory. There are challenges on the ground 
in Guam, but they would be putting some funding into U.S. 
citizens to building up U.S. infrastructure in that regard. We 
have a great deal of flexibility operating from there as well.
    So there are benefits being completely into the Asian 
continent, as we are in Korea and just offshore in Japan, as 
well as being back in Guam. And it gives us a kind of flexible, 
modern and, I think, strengthened posture in Asia that we need 
to maintain our strategic position in the region.
    Senator Hutchison. Well, I would like to hear that you are 
looking at whether 8,000 troops is the right footprint in Guam, 
given the very recent questions that are being raised by the 
EPA. Maybe there needs to be a congressional requirement that 
you look at this, and I am going to think about that. And if 
you would like to give me further information so that there is 
not a directive, but maybe there should be a directive that we 
look at whether 8,000 is the right number in Guam or maybe a 
smaller footprint that would have less cost and opportunity to 
do more consolidation somewhere else, maybe Korea. I realize 
the Japanese Government has been cooperative and helpful in the 
Japanese footprint, but I just think the concerns being raised 
by the EPA are significant, and then the Governor of Guam 
asking for $3 billion. I think their interest in this is 
getting questioned by their own population. So I would like to 
hear more from you on this.

                                  GUAM

    Dr. Robyn. Senator Hutchison, could I just make one 
comment? In thinking about their infrastructure, it is useful 
to think about it in two pieces. One, Guam is a U.S. territory. 
Its infrastructure needs to be in compliance with EPA 
regulations, which it is not in major ways right now. That is a 
problem whether or not we go there. The U.S. taxpayers, 
including the people of Guam, are going to have to share that 
burden regardless. I think the question has to do with the 
additional expansion to the infrastructure that the military 
buildup would require. But under any circumstances, Guam's 
infrastructure needs to be brought into compliance with U.S. 
regulation.
    Senator Hutchison. Well, I would like to know what percent 
of $3 billion is in infrastructure that would be required 
versus the additional imprint that the marine base would put on 
Guam.
    Let me just move to the Guantanamo Bay. Secretary Hale, why 
was the full restoration of the prison in Illinois not all put 
into the military construction budget?
    Mr. Hale. Madam Chairwoman, we understand we need to work 
with the Congress to figure out a way ahead on this issue, and 
we wanted to preserve budgetary options. So what you see is a 
transfer fund in the fiscal year 2011 OCO budget for $350 
million for all aspects of detainee operations. It could be 
used for military construction to open the Thompson site. It 
could be used to close Guantanamo, or it could be used for 
operations at either site. For example, if we end up staying at 
Guantanamo, it will be only used for operations there. Since we 
did not know for sure what the final decision would be, we felt 
a transfer fund provided us the necessary flexibility.

                  MOVING PRISONERS FROM GUANTANAMO BAY

    Senator Hutchison. Well, I think there have been 
significant questions raised about the movement of prisoners 
out of Guantanamo Bay. We have made significant infrastructure 
improvements at Guantanamo Bay. We have kept the prisoners in a 
secure place, not a threat to anyone in the United States. And 
talking about $350 million to renovate this prison, you are 
going to deploy 1,000 military personnel there to guard them, 
all of which are already accommodated at Guantanamo Bay, I just 
think in an economic situation with the debt that this country 
is incurring, it is something that should certainly be 
reconsidered by this administration and I would hope that the 
administration would. I mean, they are reconsidering the 
decision to try these detainees in New York City. Thank 
goodness. And I think that we should also reconsider the 
transfer of all the prisoners into the United States from 
Guantanamo Bay, but I realize that is above your pay grade.
    Mr. Hale. I think that is right.
    But we do want the budgetary flexibility, and let me urge 
caution in one sense. If we stay at Guantanamo--the President 
has said he wants to close Guantanamo, and I certainly support 
that decision. But if we end up staying there, we will need a 
substantial part of that fund to operate Guantanamo. So we need 
to be careful to preserve our ability if the decision is made 
to remain at Guantanamo.
    Senator Hutchison. I agree, but we are not going to have a 
lot of building requirements there. We have done that. We have 
made that investment. I think that we need to be looking at 
efficient use of taxpayer dollars as well as security.

                     ADDITIONAL COMMITTEE QUESTIONS

    Thank you. I do appreciate the panel. I know I have had 
tough questions, and I look forward to hearing more about some 
of these issues and particularly the overseas military 
construction. And I think we really need to have a lot more 
policy discussion on this issue before we move forward. Thank 
you very much.
    Mr. Hale. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. Robert F. Hale
          Questions Submitted by Senator Kay Bailey Hutchison
    Question. The Department of Defense seems to be undoing the intent 
of the Overseas Basing Commission and the intent of Congress by the 
recent QDR recommendations to retain two Brigade Combat Teams in 
Europe, to significantly increase Milcon funding for Germany and to 
change the tour length policy in Korea to increase the United States 
personnel presence on the peninsula.
    What is the reasoning behind each of these decisions?
    Answer. Significant changes in the geo-strategic environment over 
the last 5 years, such as NATO's central role in Afghanistan and 
tensions on NATO's periphery, and the growth and transformation of the 
U.S. Army's force structure warranted the QDR's re-evaluation of the 
Department's 2004 Integrated Global Posture and Basing Study decisions 
to return two Heavy Brigades from Europe and merge Army V Corps HQ with 
U.S. Army Europe.
    The Department of Defense (DOD) deferred the decision to return two 
Brigade Combat Teams from Europe after carefully considering the issue 
from numerous perspectives: strategic, operational, force management, 
quality of like, stress on the force, institutional, environmental, and 
financial. DOD's analysis concluded that any decision on the two Heavy 
Brigades or Army V Corps HQ would need to be made in a cooperative 
manner with NATO Allies and consistent with the revised NATO Strategic 
Concept. This approach explicitly took into account the conclusions of 
the congressionally mandated Overseas Basing Commission, which 
considered the retention of the BCTs in Europe ``a cost effective risk 
mitigation force.'' \1\
---------------------------------------------------------------------------
    \1\ Commission on Review of the Overseas Military Facility 
Structure of the United States, May 9, 2005, pg. F12.
---------------------------------------------------------------------------
    The decision on the tour length policy in Korea is consistent with 
the Department's 2004 basing study. The change in tour length policy in 
Korea does not affect the United States force posture and the number of 
United States personnel assigned to Korea. Rather, the change in tour 
length policy increases unit capabilities, demonstrates the long-term 
commitment of the United States to the Alliance and to the defense of 
Korea, helps enable force availability for potential deployment to 
other regions, decreases unit training costs, and reduces stress on 
service-members, bringing tour length policies in line with similar 
theaters such as Japan and Germany.
    Question. Was there a fiscal business case evaluation of the 
decision to retain two BCT's in Europe? If no, why not and if yes, will 
you share it with this subcommittee?
    Answer. The Department of Defense (DOD) decided to defer the 
decision to return two Brigade Combat Teams from Europe after carefully 
considering the issue from numerous perspectives: strategic, 
operational, force management, institutional, environmental, and 
financial. The financial aspects considered the costs of remaining in 
Europe, the costs of relocating to the United States, and the costs of 
rotating units to Europe to fulfill the operational requirements they 
currently meet. DOD's analysis concluded that there was no overwhelming 
fiscal case supporting either retaining the two Heavy Brigades in 
Europe or returning them to the United States. Rather, the analysis 
showed that strategic considerations, such as contribution to regional 
security, deterrence, and reassurance to allies are vital, particularly 
in the short-term. DOD will continue to work towards a final decision 
on this issue, in concert with our NATO Allies and consistent with the 
upcoming revised NATO Strategic Concept.
    Question. I am concerned about the amount of construction funds 
requested by the Department for projects overseas, particularly Germany 
and Korea.
    What is the amount of the fiscal contributions by the governments 
of Germany and Korea for military construction for the last 3 years?
    Answer. Under a Special Measures Agreement (SMA), the Republic of 
Korea (ROK) contributes burden sharing support to United States Forces 
Korea (USFK) in the following categories:
  --Labor Cost Sharing--cash provided to pay the salaries and benefits 
        of Korean National employees working for USFK.
  --ROK Funded Construction--cash and in-kind transfers used for USFK's 
        military construction and military construction-like 
        requirements.
  --Logistics Cost Sharing--in-kind provision of logistics equipment, 
        supplies, and services to USFK.
    Through the SMA, the ROK provided USFK with burden sharing 
contributions that totaled $741.5 billion won ($672 million) in 
calendar year 2008, $760 billion won ($595.5 million) in calendar year 
2009, and $790.4 billion won ($663.3 million) in calendar year 2010. 
Within these totals, the amount dedicated for construction in these 3 
years is $264.2 billion won ($239.4 million) in calendar year 2008, 
$292.2 billion won ($228.9 million) in calendar year 2009, and $315.8 
billion won ($299.6 million) in calendar year 2010.
    While the Department does not have a formal burden sharing 
agreement with the Federal Republic of Germany, one of the ways they 
assist United States force presence is through the provision of 
facilities using host nation funding as Payment in Kind compensation 
for the U.S.-funded improvements on facilities returned to them. From 
2008 to the present, the German government will have contributed 
approximately $33.5 million in Payment in Kind through construction of 
the following three projects:
  --Wiesbaden Army Air Field: Infrastructure/Site Improvements, $23.0 
        million;
  --Urlas Training Center, Ansbach: Infrastructure/Site Improvements, 
        $4.0 million; and
  --Urlas Training Center, Ansbach: Access Control Point, $6.50 million 
        (Approved but not yet started).
    Question. I am concerned about the ability of our troops to 
adequately train in and deploy from European locations versus locations 
in the United States.
    Answer. We have proven our mission readiness and training capacity 
during multiple brigade rotations over the past 7 years from numerous 
locations throughout Germany to include Grafenwoehr, Baumholder, 
Ansbuach and Schweinfurt to name just a few. The brigade at Baumholder 
and the brigade being consolidated at Grafenwoehr both have immediate 
access to two of the largest and best training areas in Europe. These 
two locations offer training, deployment and quality of life 
capabilities comparable to facilities anywhere in the United States. 
Grafenwoehr has firing ranges immediately available for the use of live 
fire, urban training, simulation, unexploded ordnance, IED detection 
lanes and more. Soldiers in Europe have the added benefit of continuous 
opportunities to train with soldiers from allied and partner nations. 
These opportunities have proven invaluable in building coalition 
partnerships with both NATO and non-NATO countries, and enhancing unit 
interoperability which remains critical in the field. Training and 
exercising in Europe also offers unique professional development for 
our future leaders. This same multi-national experience in coalition 
operations is unavailable to units based in the United States who may 
be called upon to deploy, or U.S.-based units who are scheduled to 
deploy conducting periodic rotations at forward locations.
    Deployment capability from European locations varies from 
installation to installation, but in general, it is comparable to 
deployment from U.S. locations. Rail lines and seaports in both United 
States and Europe can generally handle deployments well, but as they 
are commercially owned, the U.S. Army does not generally fund any 
improvements to commercially owned transportation nodes and links. 
Similar to U.S. installations, the European theater has deployment 
infrastructure to enhance deployment outload capability. Just as 
deployment from any U.S. installation, there can be minor gaps in 
various deployment infrastructure at European installations that affect 
the ability to meet deployment timelines. In general, these gaps are 
minor depending on the installation in question.
    Question. Please provide an analysis of the training and deployment 
capabilities from locations in Germany versus major installations in 
the United States.
    Answer. U.S. forces have, for years, received the highest caliber 
training at forward located training sites in EUCOM. These facilities 
have prepared numerous units for the rigors of combat in Iraq and 
Afghanistan, and carry with them the added benefit of direct on-the-
ground training and interaction with Allied/partner nations under 
controlled conditions, when clear lessons can be conveyed and genuine 
learning assimilated. These geographical benefits pay important 
dividends building partner capacity and developing coalition 
warfighting interoperability, essential to success in the contemporary 
international security arena.
    U.S. Army Europe (USAREUR) has adequate training facilities to meet 
home station and pre-deployment training requirements. USAREUR units 
have successfully deployed in support of Operation Iraq Freedom and 
Operation Enduring Freedom over the past 8 years and relied on 
USAREUR's training infrastructure to prepare. Grafenwoehr Training Area 
(GTA) is USAREUR's primary live fire range complex and provides state-
of-the-art ranges capable of accommodating live fire training from 
small arms through battalion live fire exercises. GTA has approximately 
57,000 acres of ranges and training areas which are capable of 
supporting the doctrinal training requirements for Mechanized Infantry, 
Armor, Stryker, Artillery, Aviation (rotary and fixed wing), and Light/
Airborne Infantry units.
    In addition to the GTA, USAREUR also has the Joint Multinational 
Readiness Center (JMRC). JMRC is the Europe based Combat Training 
Center (CTC) with a world-wide exportable training capability. JMRC 
trains leaders, staffs, units up to Brigade Combat Teams (+), and 
multinational partners to dominate in the conduct of Full Spectrum 
Operations (FSO). A typical JMRC year can support eight possible 
rotation windows, all of which can be used to train for operations in 
Iraq and Afghanistan. In comparison the U.S.-based National Training 
Center and Joint Readiness Training Center supports 10 possible 
rotations per year.
    USAREUR has range infrastructure comparable to most United States 
installations that support a similar amount of units. Fort Carson, 
Colorado, provides a fair comparison i.e. 4 Heavy Brigade Combat Teams 
(BCTs) and has approximately 45 live fire ranges to support live fire 
training requirements. USAREUR's current force (2 Heavy BCTs, 1 Stryker 
BCT, and 1 Airborne BCT) has 44 ranges to support its live fire 
training requirements. Units deploying from both locations are able to 
successfully conduct home station as well as pre-deployment training.
    Regarding United States deployment capabilities from Germany, the 
most expeditious route for deployment of EUCOM heavy forces remains the 
use of the rail and seaport infrastructure in Western Europe through 
seaports such as Rotterdam, Netherlands, Bremerhaven, Germany, and 
Antwerp, Belgium. Currently, we flow our Germany-based heavy brigade 
via ports on the North Sea. U.S. Transportation Command's and U.S. 
Central Command's joint planning factors estimate a 23- to 32-day 
transit timeline from Northern Europe to Southwest Asia's Ash Shuayba 
port in Kuwait. When USAEUR deployed the 1st Infantry Division from 
European ports to Southwest Asia, the transit time was only 18 days. 
Alternatively, U.S.-based heavy brigades take up to 43 days to flow 
from the West Coast of the United States to this same port. Obviously, 
European infrastructure also allows us to deploy rapidly within our own 
theater. Our routes utilize Western Europe's mature and robust rail and 
seaport infrastructure, and are facilitated by well established, 
dependable host nation support. In the event of major combat operations 
requiring multiple U.S. divisions, U.S. ports and rail lines could 
quickly become overwhelmed. Deploying from Europe saves valuable time. 
It is quite possible that four EUCOM Brigade Combat Teams (BCT) could 
be loaded on ships and underway from Europe while their U.S. BCT 
counterparts are still awaiting their turn to load on railheads at U.S. 
installations.
                                 ______
                                 
              Question Submitted by Senator Susan Collins
    Question. Every year, I join the other members of the Maine and New 
Hampshire delegations to attempt to address these funding shortfalls. 
For example, in fiscal year 2009, we were successful in securing $20 
million to provide a state-of-the-art facility to enhance the 
productivity and efficiency of submarine depot availabilities. Since 
1971, all but four of the military construction projects at Portsmouth 
Naval Shipyard have been congressional priorities and not included in 
the Administration's budget requests. To their credit, the workforce 
continues to safely deliver boats to the Navy on time and on budget.
    Why is it that my colleagues and I need to fight every year to make 
capital improvements to Portsmouth, a shipyard that former BRAC 
commission chairman, Anthony Principi, referred to as the Nation's 
preeminent shipyard?
    Answer. Last year, the Navy completed a comprehensive condition 
assessment of Naval shipyard buildings to analyze restoration 
requirements. A configuration analysis was also recently completed for 
modernization requirements.
    The Department is currently in the process of developing the future 
investment plans to ensure we can continue to effectively invest in our 
public shipyards to meet future mission requirements given the 
constrained fiscal environment.
    Portsmouth Naval Shipyard's capital improvement requirements are 
included in this analysis. Milcon and Special Projects address facility 
deficiencies in the shipyard long-range infrastructure modernization 
plan. These projects are assessed against all other Navy mission 
critical requirements and prioritized for funding within our limited 
fiscal controls.
    We are investing $23.8 million in fiscal year 2010 and $17.0 
million in fiscal year 2011 for O&M Special Projects in our continuing 
effort to sustain and improve Portsmouth infrastructure. We appreciate 
the continued support from Congress to provide capital improvements at 
Portsmouth Naval Shipyard. The Navy's shipyards are fully mission 
capable and will continue to meet both current and future planned ship 
maintenance workload.
                                 ______
                                 
                Questions Submitted to Dr. Dorothy Robyn
             Questions Submitted by Senator Mitch McConnell
    Question. Ireland Army Community Hospital at Fort Knox is one of 
the oldest hospitals in the Army. With the new Brigade Combat Team 
stationed at the post, I am concerned over the state of the current 
hospital and its ability to meet the increased demands placed upon it. 
What is the status of the Army's decision on whether and when to build 
a replacement?
    Answer. The Department is currently in the process of developing 
the fiscal year 2012 Future Year Defense Plan of medical military 
construction projects. The Office of the Assistant Secretary of Defense 
for Health Affairs is working to ensure that the requirements for 
Ireland Army Community Hospital at Fort Knox, Kentucky, are properly 
considered as it develops future priorities for the medical military 
construction program.
    Question. With the recent addition of the Brigade Combat Team at 
Fort Knox, what is the Army doing to ensure that the installation is 
capable of deploying the unit with dispatch?
    Answer. Fort Knox is currently designated as a power support 
platform (PSP) with the mission of strategically deploying individuals 
and units from all services to include Department of Defense civilian 
employees and reserve components. Even with the addition of an Infantry 
Brigade Combat Team, Fort Knox has sufficient capacity to support all 
deploying units.
    The Army is working two key initiatives at Fort Knox to improve 
capabilities for deploying units. The first includes Army Forces 
Command (FORSCOM), providing additional resources (staff and funding) 
to support timely movement/deployment operations. Additionally, the 
Army has programmed military construction projects at Fort Knox to 
improve services, infrastructure and deployment readiness as part of 
the Army Power Projection Upgrade Program (AP3).
    Question. In light of heavy deployments, I am concerned that many 
installations, including Fort Campbell, are still housing soldiers in 
Korean War-era barracks. What is the Department of Defense doing to 
ensure housing is brought up to date to help increase morale for our 
already overly taxed troops?
    Answer. At Fort Campbell, the Army has a construction plan to 
eliminate the need for permanent party Soldiers to occupy Korean War-
era barracks at the installation by the end of fiscal year 2013.
    In 2008, the Army completed the permanent party Barracks Upgrade 
Program (BUP) using Army Sustainment, Restoration, & Modernization 
(SRM) funding. BUP eliminated many inadequate barracks through 
modernization of existing facilities, where feasible.
    Additionally, the permanent party Barracks Modernization Program 
(BMP) will eliminate the Army's barracks shortfall and renovate 
inadequate barracks where modernization with SRM funding is not 
feasible. The Army plans to complete the BMP by the end of fiscal year 
2013.
    The Army is continuously reviewing its capital investment strategy 
to validate its plans for the replacement and sustainment of barracks, 
which constitute a major feature in the Army Campaign Plan. These plans 
address all barracks built before 1980.
    Question. Why is the Blue Grass Army Depot chemical weapons 
stockpile in central Kentucky not being monitored around the clock?
    Answer. The Blue Grass Chemical Activity (BGCA), subordinate to the 
U.S. Army Chemical Materials Agency, is in charge of the safe storage 
of the chemical weapons at Blue Grass Army Depot. The stockpile is 
stored in earth covered steel reinforced concrete bunkers. The bunkers 
are in a secured area with intrusion detection along with armed guards 
on roving patrols providing surveillance 24 hours a day.
    The BGCA relies on multiple safeguards to monitor the chemical 
munitions stockpile to ensure public and workforce safety. These 
safeguards include monitoring in accordance with our approved Kentucky 
Department of Environmental Protection permit along with visual 
inspections and application of munitions lot leaker data from both BGCA 
and other chemical agent storage sites. This combination of safeguards 
along with an active Chemical Stockpile Emergency Response Program have 
been in place at BGCA and all Army chemical stockpile storage sites for 
decades, and history has proven their effectiveness at protecting the 
workforce and the public.
    Question. It is my understanding that Fort Campbell does not have a 
liaison to help our veterans' transition from the DOD healthcare system 
to the VA healthcare system like many military bases do, including Fort 
Knox. Is this true? If so, when can Fort Campbell expect to have a 
liaison fill this important role?
    Answer. The VA Liaison position in question is actually a 
Department of Veterans Affairs position. Through informal coordination 
with the VA, DOD has learned that this vacant position has been under 
recruitment and a selection has been made. The VA is working all the 
issues of bringing the selected person on board.
    Question. Where does the Department rank energy security among its 
energy policy priorities and why?
    Answer. The Quadrennial Defense Review defined ``energy security'' 
as ``having assured access to reliable supplies of energy and the 
ability to protect and deliver sufficient energy to meet operational 
needs.'' As such, the Department views energy security as the capstone 
of its energy policy, rather than as one of a list of competing 
priorities.
                                 ______
                                 
                 Questions Submitted to Derek Mitchell
          Questions Submitted by Senator Kay Bailey Hutchison
    Question. During the hearing we discussed the many problems 
associated with the relocation of the U.S. Marines to Guam.
    Were the infrastructure shortcomings on Guam evaluated before the 
decision was made to relocate there?
    Answer. The Department understood the infrastructure limitations on 
Guam would represent a potential constraint of the realignment-related 
construction and on the long-term sustainability of the relocating 
Marine forces. The limitations were identified in the 2006 Realignment 
Roadmap agreement with the Government of Japan. That plan specifically 
notes that the military build-up on Guam will require improvements in 
the civil infrastructure of the island. The roadmap agreement states 
that identifying the specific upgrades or facility improvements 
required will be part of Joint Guam Military Master Plan.
    Question. Were any alternatives to Guam formally evaluated? If no, 
why not? If yes, what were they and why were they eliminated from 
consideration?
    Answer. As part of the process leading up to the Realignment 
Roadmap agreement in 2006, the Department conducted a thorough analysis 
of the full range of U.S. force realignment alternatives in the Asia-
Pacific region. In the end, the decision to move the Okinawa-based 
marines to Guam was made based on operational and political critical 
and our overall strategic requirements. The Guam relocation is part of 
a larger force restructuring plan under the Defense Policy Review 
initiative (DPRI) process. The full realignment package allows us to 
reposition more than 8,000 marines from Japan to Guam and return nearly 
70 percent of the land south of Kadena Air Base, benefiting the people 
of Okinawa, addressing noise, safety and environmental concerns, and 
creating a much more sustainable presence for U.S. forces on Okinawa--
all without adversely impacting the Alliance's operation needs and 
capabilities. As a U.S. territory strategically located in the Western 
pacific, forward deployment to Guam enables us to meet our treaty and 
alliance requirements with Japan, allows for a rapid response to 
potential contingencies, and grants our forces the freedom of action 
they need to fulfill our commitment to peace and stability in the Asia-
Pacific region.
                         Department of the Navy

STATEMENT OF ROGER M. NATSUHARA, ACTING ASSISTANT 
            SECRETARY OF THE NAVY (INSTALLATIONS AND 
            ENVIRONMENT)
ACCOMPANIED BY:
        MAJOR GENERAL EUGENE G. PAYNE, JR., ASSISTANT DEPUTY COMMANDANT 
            (INSTALLATIONS AND LOGISTICS)
        REAR ADMIRAL CHRISTOPHER J. MOSSEY, DIRECTOR OF SHORE READINESS
    Senator Hutchison. And now we have our second panel: Mr. 
Roger Natsuhara, the Acting Assistant Secretary of the Navy; 
Major General Eugene Payne, the Assistant Deputy Commandant for 
Installations and Logistics; Rear Admiral Christopher Mossey, 
the Director of Shore Readiness.
    I will start with you. Mr. Natsuhara, let us start with 
your opening statement.

                SUMMARY STATEMENT OF ROGER M. NATSUHARA

    Mr. Natsuhara. Thank you, ma'am. Ranking Member Hutchison, 
it is a privilege to come before you today to discuss the 
Department of the Navy's investments in its shore 
infrastructure. I am joined this morning by Major General 
Payne, the Marine Corps Assistant Deputy Commandant for 
Installations and Logistics, and Rear Admiral Mossey, Director 
of the Navy Shore Readiness Division.

                             INSTALLATIONS

    The Department's fiscal year 2011 budget request includes a 
$14.9 billion investment in our installations. The military 
construction request of $3.9 billion remains at an historical 
high.
    Our program continues the effort to ensure facilities are 
in place to support the Marine Corps end strength of 202,100 
active duty personnel. We are investing over $700 million in 
funding for the construction of unaccompanied housing to 
support single sailors and marines. These funds support 
requirements associated with the Marine Corps' Grow the Force 
initiative and the Chief of Naval Operation's commitment to 
achieve Homeport Ashore by 2016.

                                  GUAM

    The Milcon request also provides further investments to 
relocate marines from Okinawa to Guam. The projects funded by 
this level of investment provide enduring infrastructure 
necessary to enable the construction program for fiscal year 
2012 and beyond. The Government of Japan in its fiscal year 
2010 budget has requested a comparable amount of $498 million, 
and we expect to receive their contribution in June.
    Regarding the EIS for the Guam relocation, as it is 
designed to do, the National Environmental Policy Act process 
and associated studies are helping us identify and address 
environmental issues and constraints and develop effective 
mitigation strategies. To that end, we are currently analyzing 
all public comments, including those received from other 
resource agencies, in developing strategies for addressing 
concerns raised in the final EIS. We are committed to 
developing effective and appropriate mitigation.

                             FAMILY HOUSING

    The family housing request provides for the 
recapitalization of overseas housing, as well as additional 
privatization, to address the Marine Corps Grow the Force 
initiative.

                      BASE REALIGNMENT AND CLOSURE

    Regarding prior BRAC, we do not foresee much potential for 
large revenue from land sales. Thus, we again seek appropriate 
funds in fiscal year 2011 in the amount of $162 million. The 
BRAC 2005 budget request of $342 million supports outfitting, 
realignment, and closure functions as the necessary 
construction project for funding in prior years. We are on 
track for full compliance with statutory requirements by the 
September 15, 2011 deadline.

                                 ENERGY

    Finally, the Department is investing an additional $174 
million to support Secretary Mabus' aggressive energy goals to 
increase energy security, reduce dependency on fossil fuels, 
and promote good stewardship of the environment.

                           PREPARED STATEMENT

    In closing, your support of the Department's fiscal year 
2011 budget request will ensure the Department is able to build 
and maintain facilities that enable our Navy and Marine Corps 
to meet the diverse challenges of tomorrow. Thank you for the 
opportunity to testify before you today. I look forward to 
answering any questions you may have.
    Senator Hutchison. Thank you.
    [The statement follows:]
   Prepared Statement of Roger M. Natsuhara; Major General Eugene G. 
             Payne; and Rear Admiral Christopher J. Mossey
    Chairman Johnson, Senator Hutchison, and members of the 
subcommittee, I am pleased to appear before you today to provide an 
overview of the Department of Navy's investment in its shore 
infrastructure.
                  the navy's investment in facilities
    Our Nation's Navy-Marine Corps team operates globally, having the 
ability to project power, effect deterrence, and provide humanitarian 
aid whenever and wherever needed to protect the interests of the United 
States. Our shore infrastructure provides the backbone of support for 
our maritime forces, enabling their forward presence. The Department's 
fiscal year 2011 budget request includes a $14.9 billion investment in 
our installations, an increase of over $450 million from last year.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Our fiscal year 2011 request for Base Operating Support is $6.9 
billion (which includes nearly $450 million for environmental 
programs), 6.7 percent greater than last year's request.
    The fiscal year 2011 military construction (active + reserve) 
request of $3.9 billion is only slightly larger than fiscal year 2010 
request and remains at a historical high. The program continues the 
effort to ensure facilities are in place to support the Marine Corps' 
end-strength of 202,100 active duty personnel. It also provides further 
investments in accordance with the Defense Policy Review Initiative to 
relocate marines from Okinawa to Guam.
    The fiscal year 2011 Family Housing request of $553 million 
represents a 7 percent increase from the fiscal year 2010 request. The 
Navy and Marine Corps have continued to invest in housing, including 
both the recapitalization of overseas housing as well as additional 
privatization to address housing requirements. Thus, having virtually 
privatized all family housing located in the United States, at overseas 
and foreign locations where we continue to own housing we are investing 
in a ``steady state'' recapitalization effort to replace or renovate 
housing where needed.
    Our BRAC program consists of environmental cleanup and caretaker 
costs at prior BRAC locations, and implementation of BRAC 2005 
recommendations.
    We do not foresee much potential for large revenue from land sales, 
which were used to fund the Legacy BRAC program from fiscal year 2005 
through fiscal year 2008. Thus, we again seek appropriated funds in 
fiscal year 2011 in the amount of $162 million. Should land sale 
revenue accrue from the disposal of the former Naval Station Roosevelt 
Roads in Puerto Rico and some other smaller property sales, we will 
reinvest them to accelerate cleanup at the remaining prior BRAC 
locations.
    The fiscal year 2011 BRAC 2005 budget request of $342 million 
supports only outfitting, realignment, and closure functions as the 
necessary construction projects were funded in prior years. The 
Department has made significant progress during the past year, and to 
date has completed 253 of 488 realignment and closure actions as 
specified in our established business plans and we are on track for 
full compliance with statutory requirements by the September 15, 2011 
deadline.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Finally, the Department's PB 2011 budget request includes an 
additional $174 million to support Secretary Mabus' aggressive energy 
goals to increase energy security, reduce dependency on fossil fuels, 
and promote good stewardship of the environment. Toward this end, he 
directed an additional investment of $1.4 billion be made through the 
Future Years Defense Program. The PB 2011 program funds three military 
construction projects to build photovoltaic arrays, continues research 
and development in operational energy efficiencies for the tactical 
fleet, and will enable the Services to increase the energy efficiency 
of its infrastructure.
    Here are some of the highlights of these programs.
                         military construction
    The DoN's fiscal year 2011 Military Construction program requests 
appropriations of $3.9 billion, including $122 million for planning and 
design and $21 million for Unspecified Minor Construction.
    The active Navy program totals $1.1 billion and includes:
  --$399 million to fund 11 Combatant Commander projects: a General 
        Warehouse, a Horn of Africa Joint Operations Center, a base 
        Headquarters Facility, and External Road Paving at Camp 
        Lemonier, Djibouti; an Operations Support Facility, the third 
        phase of the Waterfront Development, and an Ammunition 
        Magazines in Bahrain; a Joint POW/MIA Accounting Command 
        Facility and a Center for Disaster Management/Humanitarian 
        Assistance in Pearl Harbor, Hawaii; a Vehicle Paint Facility at 
        Macdill AFB, Florida; and an Air Traffic Control Tower in Naval 
        Air Station Rota, Spain.
  --$75 million to fund one Bachelor Quarters at Naval Base San Diego, 
        California in support of the elimination of Homeport Ashore 
        deficits by 2016 at the Interim Assignment Policy (2 personnel 
        per room).
  --$101 million to fund four Nuclear Weapons Security projects: a 
        Security Enclave and Waterfront Emergency Power at Submarine 
        Base Kings Bay, Georgia; and Waterfront Emergency Power and 
        Limited Area Emergency Power at Naval Base Kitsap, Washington.
  --$148 million to fund five projects to achieve Initial/Final 
        Operational Capability requirements for new systems: an 
        Aviation Simulator Training Facility at Naval Air Facility 
        Atsugi, Japan; a Broad Area Maritime Surveillance Testing and 
        Evaluation Facility at Naval Air Station Patuxent River, 
        Maryland; a T-6 Capable Runway Extensions at Outlying Landing 
        Fields (OLF) Barin and Summerdale, Alabama; a MH-60 R/S Rotary 
        Hangar at Naval Base Coronado, California; and Upgrades to 
        Piers 9/10 at Naval Station Norfolk, Virginia.
  --$196 million to fund additional critical Navy Priorities: an 
        Electromagnetic Sensor Facility at Naval Station Newport, Rhode 
        Island; the second phase of the Agile Chemical Facility at 
        Indian Head, Maryland; a Pier Replacement and Dredging at Naval 
        Base San Diego, CA; a Laboratory Expansion at Naval Base 
        Kitsap, Washington; and a Pier Upgrade at Naval Station 
        Norfolk, Virginia.
  --$119 million to fund follow-on increments of projects previously 
        incremented by Congress: the final increment of the Limited 
        Area Production and Storage Facility at Naval Base Kitsap, 
        Washington; and the second increment of the Pier 5 
        Recapitalization at Norfolk Naval Shipyard, Virginia.
  --$57 million for planning and design efforts.
    The active Marine Corps program totals $2.8 billion of which $1.25 
billion is for Grow the Force and $452 is for design and construction 
to support the relocation of marines to Guam.
  --$630 million for the construction of unaccompanied housing at Camp 
        Pendleton, Twentynine Palms, Hawaii, Cherry Point, Camp 
        Lejeune, and Quantico in a continuation of the Commandant of 
        the Marine Corps' initiative to improve the quality of life for 
        single marines;
  --$74 million to provide quality of life facilities such as dining 
        facilities and physical fitness centers at Beaufort, Hawaii, 
        and Camp Lejeune;
  --$56 million to construct student billeting for the Basic School in 
        Quantico, Virginia;
  --$357 million to build infrastructure to support new construction. 
        These projects include communications upgrades, electrical 
        upgrades, natural gas systems, drinking and wastewater systems. 
        These projects will have a direct effect on the quality of life 
        of our marines. Without these projects, basic services 
        generally taken for granted in our day-to-day lives, will fail 
        as our marines work and live on our bases;
  --$781 million to fund operational, maintenance, and storage support 
        projects such as those needed for the MV-22 aircraft at New 
        River and Miramar and Joint Strike Fighter at Yuma; and 
        operational units in Camp Lejeune, Cherry Point, Camp 
        Pendleton, and Hawaii;
  --$195 million to provide training facilities for aviation units at 
        Camp Pendleton, Beaufort, and Yuma;
  --$50 million to support professional military education by providing 
        facilities at Marine Corps University in Quantico;
  --$25 million to provide encroachment control at Beaufort and Bogue 
        Field;
  --$30 million to provide military construction-funded photovoltaic 
        power plants at Camp Pendleton, San Diego, and Camp Lejeune;
  --$75 million to support on- and off-load equipment operations at 
        Blount Island;
  --$427 million for facilities necessary to support the relocation of 
        marines to Guam; and
  --$64 million for planning and design efforts.
    With these new facilities, marines will be ready to deploy and 
their quality of life will be enhanced. Without them, quality of work, 
quality of life, and readiness for many marines will have the potential 
to be seriously degraded.
    The Navy and Marine Corps Reserve Military Construction 
appropriation request is $61 million, including $2 million for planning 
and design efforts, to construct a Reserve Training Facility at Yakima, 
Washington, a Vehicle Maintenance Facility at Twenty-Nine Palms, 
California, a Joint Air Traffic Control Tower at Joint Reserve Base New 
Orleans, Louisiana, and an Ordnance Cargo Logistics Training Complex at 
Naval Weapons Station Yorktown, Virginia.
         fully funded and incrementally funded milcon projects
    Our fiscal year 2011 budget request complies with Office of 
Management and Budget Policy and the DOD Financial Management 
Regulation that establishes criteria for the use of incremental 
funding. The use of incremental funding in this budget has been 
restricted to the continuation of projects that have been incremented 
in prior years. Otherwise, all new projects are fully funded or are 
complete and usable phases. However, as the cost of complex piers and 
utilities systems rise above the $100 million and even $200 million 
threshold, compliance with the full-funding policy drives both Services 
to make hard choices regarding which other equally critical projects 
must be deferred into the next year.
                         facilities management
Facilities Sustainment, Restoration and Modernization (SRM)
    The Department of Defense uses a Sustainment model to calculate 
life cycle facility maintenance and repair costs. These models use 
industry-wide standard costs for various types of buildings and 
geographic areas and are updated annually. Sustainment funds in the 
Operation and Maintenance accounts are used to maintain facilities in 
their current condition. The funds also pay for preventative 
maintenance, emergency responses for minor repairs, and major repairs 
or replacement of facility components (e.g. roofs, heating and cooling 
systems). The fiscal year 2011 budget request funds sustainment at 92 
percent and 90 percent for the Navy and Marine Corps, respectively. For 
Navy, funding includes Joint Basing investments which requirements have 
yet to transfer. Once they do, the rate will revert to 90 percent.
    Restoration and modernization (R&M) provides major upgrades of our 
facilities using Military Construction, Operation and Maintenance, Navy 
Working Capital Fund, and BRAC, as applicable. Although OSD has 
determined a condition-based model (``Q-ratings'') is the best approach 
to prioritize funding, establishing metrics has been challenging. 
Nonetheless, in fiscal year 2011, the Department of Navy is investing 
nearly $1.3 billion in R&M funding.
Encroachment Partnering
    The Department of the Navy has an aggressive program to manage and 
control encroachment, with a particular focus on preventing 
incompatible land use and protecting important natural habitats around 
installations and ranges. A key element of the program is Encroachment 
Partnering (EP), which involves cost-sharing partnerships with States, 
local governments, and conservation organizations to acquire interests 
in real property adjacent and proximate to our installations and 
ranges. Encroachment Partnering Agreements help prevent development 
that would adversely impact existing or future missions. These 
agreements also preserve important habitat near our installations in 
order to relieve training or testing restrictions on our bases. The 
program has proven to be successful in leveraging Department of Defense 
and Department of Navy resources to prevent encroachment.
    For fiscal year 2009, the Navy acquired restrictive easements over 
3,091 acres. The acquisitions were funded by $7.1 million from the 
Department of Defense Readiness and Environmental Protection Initiative 
(REPI) program, $2 million of Navy funds, and $9.25 million from the 
encroachment partners. The Marine Corps during fiscal year 2009 
acquired easements over 1,777 acres. These acquisitions were funded by 
$7.7 million from REPI, $6.2 million from Navy funds, and $7.2 million 
from the encroachment partners. The encroachment program has 
successfully initiated restrictive easement acquisitions at 13 Navy 
installations and 7 Marine Corps installations.
Compatible Development
    Vital to the readiness of our Fleet is unencumbered access to 
critical water and air space adjacent to our facilities and ranges. An 
example is the outer continental shelf (OCS) where the vast majority of 
our training evolutions occur. The Department realizes that energy 
exploration and off-shore wind development play a crucial role in our 
Nation's security and are not necessarily mutually exclusive endeavors. 
Therefore, we are engaging with the other services, the Secretary of 
Defense's office, and the Department of Interior to advance the 
administration's energy strategy. We are poised to coordinate with 
commercial entities, where feasible, in their exploration and 
development adjacent to installations and our operating areas along the 
OCS that are compatible with military operations. However, we must 
ensure that obstructions to freedom of maneuver or restrictions to 
tactical action in critical range space do not measurably degrade the 
ability of naval forces to achieve the highest value from training and 
testing.
    The Department of the Navy has an aggressive program to manage and 
control encroachment, with a particular focus on preventing 
incompatible land use and protecting important natural habitats around 
installations and ranges. A key element of the program is Encroachment 
Partnering (EP), which involves cost-sharing partnerships with States, 
local governments, and conservation organizations to acquire interests 
in real property adjacent and proximate to our installations and 
ranges. The Department prevents development that is incompatible with 
the readiness mission, and our host communities preserve critical 
natural habitat and recreational space for the enjoyment of residents. 
Navy and Marine Corps have ongoing EP agreements at 14 installations 
and ranges nationwide, with additional agreements and projects planned 
in fiscal year 2010. EP has been a highly effective tool for addressing 
encroachment threats from urban development and is a win-win for the 
Department and our host communities.
    In fiscal year 2008, Navy and Marine Corps completed partnership 
acquisitions on 16,662 acres. Funding for those purchases of land and 
easements included a combined contribution from DOD and DoN of $11.72 
million, which was matched by similar investments from partner 
organizations. In fiscal year 2009, Navy and Marine Corps received an 
additional $19.78 million from the DOD Readiness and Environmental 
Protection Initiative program, which will be combined with funding from 
the Department and our partner organization.
                             energy reform
    The Department of the Navy (DoN) is committed to implementing a 
balanced energy program that exceeds the goals established by the 
Energy Independence and Security Act of 2007, Energy Policy Act of 
2005, National Defense Authorization Act of 2007 and 2010, Executive 
Orders 13423 and 13514. We place a strong emphasis on environmental 
stewardship, reducing overall energy consumption, increasing energy 
reliability, and reducing our dependence on fossil fuels. The 
Department is a recognized leader and innovator in the energy industry 
by the Federal Government and private sector as well. Over the past 9 
years, DoN has received 28 percent of all of the Presidential awards 
and 30 percent of all of the Federal energy awards. Additionally, DoN 
has received the Alliance to Save Energy ``Star of Energy Efficiency'' 
Award and two Platts ``Global Energy Awards'' for Leadership and Green 
Initiatives.
Organization and Commitment
    Increased Energy Efficiency is a Department of Defense (DOD) High 
Priority Performance Goal. Moreover, the Secretary of the Navy (SECNAV) 
is whole-heartedly committed to the energy effort and it is one of his 
top three initiatives for the Department. The Secretary established a 
Deputy Assistant Secretary of the Navy for Energy (DASN-Energy) to 
consolidate the Department's operational and installation energy 
missions. The consolidation of both operational and installation energy 
portfolios under one director is unique to the Department of the Navy. 
The DASN-Energy will be a career member of the Senior Executive Service 
who will report directly to the ASN (I&E) and will be able to 
coordinate across the Department to develop overarching policy, provide 
guidance, oversee the continued development of new ideas and align 
existing programs. In turn, each of the Services has established an 
energy management office to implement the Secretary's guidance. Within 
the Chief of Naval Operations (CNO) organization, a Navy Energy 
Coordination Office (NECO) was established to develop and 
institutionalize the Navy's Energy Strategy. Within the Commandant of 
the Marine Corps (CMC) organization, an Expeditionary Energy Office was 
established to drive energy efforts and initiatives within the 
expeditionary forces on the ground in theater.
    From the secretary down to the deck plate sailor and the marine in 
the field, the Department is committed to meeting our aggressive energy 
goals. We all view energy as an invaluable resource that provides us 
with a strategic and operational advantage.
Energy Goals
    The key statutory and regulatory goals relevant to installation 
energy consumption require the following:
  --Reduce energy intensity (BTUs per square foot) by 3 percent per 
        year, or 30 percent overall, by 2015 from the 2003 baseline 
        [Energy Independence and Security of 2007, or EISA] [this 
        includes an 18 percent reduction by the end of fiscal year 2011 
        in accordance with DOD's High Priority Performance Goals in the 
        President's Budget];
  --Increase use of renewable energy to 7.5 percent in 2013 and beyond 
        (Energy Policy Act of 2005, or EPACT); and produce or procure 
        25 percent of all electric energy from renewable sources by the 
        end of 2025 [National Defense Authorization Act of 2007] [this 
        includes the DOD's High Priority Performance Goal of 14.3 
        percent by 2011]; and
  --Reduce consumption of petroleum (gasoline and diesel) by non-
        tactical vehicles by 30 percent by 2020 [Executive Order 13514, 
        October 2009].
    However, in October of 2009, Secretary Mabus established far more 
aggressive goals for the Department. For installations, he directed 
that 50 percent of our shore energy will come from alternative sources 
and that by 2015 the Department will reduce fleet vehicle petroleum 
usage by greater than 50 percent. Based on these ambitious energy 
goals, we are developing our strategic roadmap and a set of energy 
directives that will provide guidance and direction to the Navy and 
Marine Corps. We are also developing baseline metrics, milestones, 
tools and methodologies to measure and evaluate progress towards 
meeting the Secretary's goals. Additionally, we are documenting our 
past and current energy use for tactical platforms and shore 
installations. We are making investments, allocating resources, 
developing possible legislation, institutionalizing policy changes, 
creating public-private partnerships, and pursuing technology 
development required to meet these goals. These investments will 
include $28.23 million in Energy Conservation Investment Program (ECIP) 
projects, which have a savings to investment ratio of 2.94.
                                housing
    The following tenets continue to guide the Department's approach to 
housing for sailors, marines, and their families:
  --All service members, married or single, are entitled to quality 
        housing; and
  --The housing that we provide to our personnel must be fully 
        sustained over its life.
    A detailed discussion of the Department's family and unaccompanied 
housing programs, and identification of those challenges, follows:
                             family housing
    As in past years, our family housing strategy consists of a 
prioritized triad:
  --Reliance on the Private Sector.--In accordance with longstanding 
        DOD and DoN policy, we rely first on the local community to 
        provide housing for our sailors, marines, and their families. 
        Approximately three out of four Navy and Marine Corps families 
        receive a Basic Allowance for Housing (BAH) and own or rent 
        homes in the community. We determine the ability of the private 
        sector to meet our needs through the conduct of housing market 
        analyses that evaluate supply and demand conditions in the 
        areas surrounding our military installations.
  --Public/Private Ventures (PPVs).--With the strong support from this 
        Committee and others, we have successfully used PPV authorities 
        enacted in 1996 to partner with the private sector to help meet 
        our housing needs through the use of private sector capital. 
        These authorities allow us to leverage our own resources and 
        provide better housing faster to our families. Maintaining the 
        purchasing power of BAH is critical to the success of both 
        privatized and private sector housing.
  --Military Construction.--Military construction (Milcon) will 
        continue to be used where PPV authorities don't apply (such as 
        overseas), or where a business case analysis shows that a PPV 
        project is not feasible.
    Our fiscal year 2011 budget includes $186 million in funding for 
family housing construction, improvements, and planning and design. 
This amount includes $107 million for the Government investment in 
continued family housing privatization at Marine Corps Bases Camp 
Pendleton, California and Camp Lejeune, North Carolina. The request for 
Camp Lejeune includes funding for an addition to a Department of 
Defense school. It also includes $76 million for the replacement or 
revitalization of Navy and Marine Corps housing, primarily in Japan and 
Cuba where the military housing privatization authorities do not apply. 
Finally, the budget request includes $366 million for the operation, 
maintenance, and leasing of remaining Government-owned or controlled 
inventory.
    As of the end of fiscal year 2009, we have awarded 33 privatization 
projects involving over 62,000 homes. These include over 42,000 homes 
that will be constructed or renovated. (The remaining homes were 
privatized in good condition and did not require any work.) Through the 
use of these authorities we have secured approximately $9 billion in 
private sector investment from approximately $900 million of our funds, 
which represents a ratio of over nine private sector dollars for each 
taxpayer dollar.
    While the military housing privatization initiative has been 
overwhelmingly successful, we can continue to work with our partners to 
address challenges associated with current economic conditions. In some 
cases, projects may need to be restructured to better match supply with 
demand and to ensure that the housing will continue to be sustained and 
recapitalized over the long term.
    Perhaps the most important measure of success of our privatization 
program has been the level of satisfaction on the part of the housing 
residents. To gauge their satisfaction, we used customer survey tools 
that are well established in the marketplace. As shown in the following 
chart, the customer surveys indicate a steady improvement in member 
satisfaction after housing is privatized. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Unaccompanied Housing
    Our budget request includes over $700 million in funding for the 
construction of unaccompanied housing to support single sailors and 
marines. This includes over $600 million of funding to support 
requirements associated with the Marine Corps ``Grow the Force'' 
initiative and to continue implementation of the Commandant of the 
Marine Corps program to construct sufficient housing so that no more 
than two single marines are required to share a sleeping room. The 
budget request also includes $75 million to support the Chief of Naval 
Operations commitment to achieve the Navy's ``Homeport Ashore'' 
objective by 2016.
    The following are areas of emphasis within the Department regarding 
housing for single sailors and marines:
  --Provide Homes Ashore for Our Shipboard Sailors.--The Homeport 
        Ashore initiative seeks to provide a barracks room ashore 
        whenever a single sea duty sailor is in his or her homeport, so 
        they need not live on the ship. The Navy has made considerable 
        progress towards achieving this goal through military 
        construction, privatization, and intensified use of existing 
        barracks capacity. The Chief of Naval Operations is committed 
        to providing housing ashore for all junior sea duty sailors by 
        2016 at the Interim Assignment Policy standard (55 square feet 
        of space per person). The Navy's long term goal is to achieve 
        the OSD private sleeping room standard (90 square feet per 
        person).
  --Commandant's BEQ Initiative.--It is the Commandant of the Marine 
        Corps' priority to ensure single marines are adequately housed. 
        Thanks to your previous support of this initiative, the Marine 
        Corps will make significant progress toward fulfilling this 
        priority. Milcon funding since fiscal year 2008 for the Marine 
        Corps barracks initiative will result in the construction of 
        approximately 19,800 new permanent party spaces at multiple 
        Marine Corps installations. Your continued support of this 
        initiative in our fiscal year 2011 proposal will allow us to 
        construct an additional 5,000 new permanent party barracks 
        spaces. With this funding we will stay on track to meet our 
        2014 goal. The fiscal year 2011 request for bachelor housing 
        will provide 13 barracks projects at Camp Lejeune and Cherry 
        Point, North Carolina, Twenty-Nine Palms, and Camp Pendleton, 
        California, Hawaii, and Quantico, Virginia. We are also 
        committed to funding the replacement of barracks' furnishings 
        on a 7-year cycle as well as the repair and maintenance of 
        existing barracks to improve the quality of life of our 
        marines. These barracks will be built to the 2+0 room 
        configuration, as have all Marine Corps barracks since 1998. 
        This is consistent with the core Marine Corps tenets for unit 
        cohesion and teambuilding.
Unaccompanied Housing Privatization
    The Navy has also executed two unaccompanied housing privatization 
projects using the pilot authority contained in section 2881a of title 
10, United States Code. In March we cut the ribbon on the Pacific 
Beacon project in San Diego. Pacific Beacon includes 258 conveyed units 
targeted for unaccompanied E1-E4 sea duty sailors and 941 newly 
constructed dual master suite units targeted for E4-E6 sailors.
    The second unaccompanied housing privatization project is in 
Hampton Roads (executed in December 2007) and included the conveyance 
of 723 units in seven buildings on Naval Station and Naval support 
Activity Norfolk and the construction of 1,190 dual master suite units. 
The last units are scheduled for completion in 2010.
    With these two pilot projects, we have secured approximately $600 
million in private sector investment from approximately $80 million of 
our funds, which represents a ratio of over seven private sector 
dollars for each taxpayer dollar.
    Based on resident surveys, the residents of privatized 
unaccompanied housing at both San Diego and Hampton Roads are very 
satisfied with service received from the privatization partner as well 
as the condition of the units. San Diego won an industry award for 
excellence in providing customer satisfaction.
                     relocating the marines to guam
    The fiscal year 2011 budget request includes $452 million to design 
and construct facilities in support of the relocation. The projects 
funded by this level of investment provide the horizontal 
infrastructure (utilities, site improvements, etc.) necessary to enable 
the vertical construction programmed for fiscal year 2012 and beyond. 
The Government of Japan, in its J-fiscal year 2010 budget (which runs 
April 1, 2010 through March 31, 2011) has requested a comparable amount 
of $498 million and we expect to receive their contribution in June. 
The graph at left identifies the projects each funding stream 
constructs. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Marine Corps relocation, along with other DOD efforts to 
realign forces and capabilities to Guam, represents a unique 
opportunity to strategically realign the U.S. force posture in the 
Pacific for the next 50 years. This is a major effort and one we must 
get right. The Department of Defense recognizes that the condition of 
Guam's existing infrastructure could affect both our ability to execute 
the program schedule and quality of life on the island. If the issues 
surrounding existing infrastructure and other major social issues 
impacting Guam are left unaddressed by the Federal Government in this 
strategic realignment, we risk creating disparity between conditions 
on- and off-base, losing the support of the people of Guam, and 
adversely affecting our ability to achieve our mission. The Department 
of Defense is committed to ensuring this does not happen, and is 
leading the effort to coordinate an interagency ``whole-of-government 
approach'' to solve Guam's many issues. Our strategy is to identify 
options that will support DOD missions, provide the widest possible 
benefit to the people of Guam, be technically and financially 
supportable by utilities providers and rate payers, and be acceptable 
to Government of Guam and regulatory officials. DOD recently held a 
meeting of the Economic Adjustment Committee (EAC) as recommended in a 
recent Government Accountability Office review, to discuss with Federal 
agencies and departments a plan for identifying and addressing Guam's 
priority needs.
    Construction capacity studies, assessments of socioeconomic 
impacts, and the development of the Environmental Impact Statement 
(EIS) have demonstrated that, in particular, Guam's road network, 
commercial port, and utilities systems are in need of upgrades. DOD is 
contributing to funding upgrades to the island's public roadways, 
bridges and intersections through the Defense Access Road (DAR) 
program. Road improvement projects have been certified by 
Transportation Command's Surface Deployment and Distribution Command 
under the DAR program for fiscal year 2011, following up on the 
projects funded in fiscal year 2010. Existing deficiencies in the 
island's road system and long-term traffic impacts due to the projected 
population increase are being considered in partnership between Guam 
Department of Public Works and the U.S. Federal Highway Administration. 
These efforts are occurring in parallel in order to ensure 
compatibility and mutual benefit to DOD and the Guam community.
    The commercial port, which is vital to this isolated island 
community, has not undergone any major improvements since it began 
operations 40 years ago. The port requires near and long-term 
improvements to support the military buildup and future community 
growth. The Port Authority of Guam (PAG) and the U.S. Maritime 
Administration (MARAD) signed a memorandum of understanding to improve 
the port by developing an adequate master plan and implementation of a 
Capital Improvement Plan. These plans will develop the port into a 
regional shipping hub that will serve both military and civilian needs 
in the region in the long term. With recommended upgrades and 
improvements to materials-handling processes, the Port of Guam should 
be able to accommodate throughput to sustain the expected $1.5-2.0 
billion per year in construction volume. DOD, MARAD, PAG, the 
Government of Guam, and Federal agencies are currently working to 
identify a funding source which could support the near-term 
improvements required at the port.
    Of the total $6.09 billion Japanese commitment included in the 
Realignment Roadmap, $740 million is for developing electric, potable 
water, sewer, and solid waste infrastructure in support of the 
relocating Marine Corps forces. Analysis of utilities options indicates 
that developing new, stand-alone systems will not be cost-effective. 
DOD is collaborating with Guam's utilities providers to understand 
their needs and to determine the feasibility of water, wastewater, 
solid waste and power solutions that are mutually beneficial and 
acceptable to DOD, the civilian community and the regulatory agencies. 
We are actively working with Guam's Consolidated Commission on 
Utilities and utilities providers (Guam Power Authority, Guam Water 
Authority), Guam EPA, and U.S. EPA to develop the best technical 
solutions for utilities systems and facilities. Specific to wastewater, 
Guam's current system requires upgrades to both increase its capacity 
and to meet standards for primary and secondary treatment. These 
upgrades are critical enablers to the construction program and we are 
anticipating funding from Japan to meet these requirements. We are also 
working with the Department of Interior, U.S. EPA, and the Department 
of Agriculture on potential funding opportunities using a whole-of-
government approach to addressing island-wide utilities solutions.
    DOD's Office of Economic Adjustment (OEA) has provided the 
Government of Guam with grants totaling more than $10 million to 
support environmental, financial and planning studies; staffing; and 
community outreach programs.
    We will seek to maximize opportunities for U.S. workers, including 
the existing workforce on Guam. Nonetheless, we recognize the potential 
for significant socioeconomic effects on Guam with the introduction of 
off-island workers who will support the construction program. In order 
to minimize negative effects, we worked closely with the Government of 
Guam, Federal agencies, and other stakeholders to develop requirements 
which would mitigate environmental and social impacts associated with 
the anticipated influx of off-island construction workers. Our 
acquisition strategy includes contract provisions requiring contractors 
to provide concrete, feasible plans and resources to mitigate potential 
socioeconomic impacts. In awarding construction contracts a workforce 
management plan, is one of three major technical factors in the source 
selection criteria.
    Among the areas we are evaluating in the workforce management 
source selection criteria are management of medical, housing, dining, 
transportation, and security for workers, taking into account potential 
long-term positive side benefits that different solutions may have for 
the Guam community.
Environmental Impact Statement
    As it is designed to do, the National Environmental Policy Act 
(NEPA) process and associated studies are helping us identify and 
address environmental issues and constraints and develop effective 
mitigation strategies. A key milestone to executing the realignment 
within the targeted timeframe is achieving a Record of Decision on a 
schedule that allows for construction to begin in fiscal year 2010. The 
target for a Record of Decision is August 2010. On November 20, 2009, 
we released the Draft EIS for public review with a 90-day comment 
period. This comment period, which was twice the amount of time 
required under NEPA, was used because we were committed to ensuring 
that all interested parties have full opportunity to review and provide 
comment on the DEIS. We realize there are significant and complicated 
issues that need to be studied in preparing the Final EIS and reaching 
a Record of Decision (ROD) on the realignment effort. We also recognize 
the interests of the public need to be protected. However, we remain on 
an aggressive schedule to finish the Final EIS by the summer of 2010, 
with ROD following. Other agencies have identified significant issues, 
including the potential long-term impacts to environmental resources, 
that we are analyzing along with all other comments received. To that 
end, we are currently analyzing all public comments including those 
received from other resource agencies and developing strategies for 
addressing concerns raised in the Final EIS. We are committed to 
developing effective and appropriate mitigation. Additionally, we will 
continue to meet with resource agencies as we have done throughout the 
development of the EIS to elevate and resolve several technical and 
policy issues. We will share with the Congress significant issues that 
emerge during the process of developing the final EIS.
                prior brac cleanup and property disposal
    The BRAC rounds of 1988, 1991, 1993, and 1995 were a major tool in 
reducing our domestic installation footprint and generating savings. 
All that remains is to complete the environmental cleanup and property 
disposal on portions of 16 of the original 91 bases and to complete 
environmental cleanup, including long term monitoring at 22 
installations that have been disposed.
Property Disposal
    We disposed of 154 acres of real property in fiscal year 2009, for 
a total of 93 percent of real property disposed in the first four 
rounds of BRAC. We continue to use the variety of the conveyance 
mechanisms available for Federal Property disposal, including the 
Economic Development Conveyance (EDC) that was created for BRAC 
properties. Of the real property the Department has disposed, 91 
percent of this property was conveyed at no cost. From the remaining 9 
percent of conveyed property, the Department has received over $1.1 
billion in land sale revenues. We have used these funds to accelerate 
environmental cleanup and were able to finance the entire DON Prior 
BRAC effort, from fiscal year 2005 through fiscal year 2008.
    Future opportunities for land sale revenues, however, are very 
limited, and we continue our request for appropriated funds in fiscal 
year 2011. Our budget request of $162 million will enable us to 
continue disposal actions and meet the minimum legal requirements for 
environmental clean up. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Prior BRAC Environmental Cleanup
    The Department has now spent about $4.3 billion on environmental 
cleanup, environmental compliance, and program management costs at 
prior BRAC locations through fiscal year 2009. Our remaining 
environmental cost to complete for fiscal year 2010 and beyond is 
approximately $1.4 billion. This includes $160 million cost growth 
which is due in part to additional munitions cleanup at Naval Air 
Facility Adak, AK and Naval Shipyard Mare Island, CA, clean up at Naval 
Station Roosevelt Roads, Puerto Rico, and additional long term 
monitoring program-wide. The increase is also associated with 
additional radiological contamination at Naval Station Treasure Island, 
CA, Naval Air Station Alameda, CA, and Naval Shipyard Mare Island, CA.
Naval Station Treasure Island, CA
    We would like to highlight a breakthrough on negotiations for the 
EDC of Naval Station Treasure Island. Negotiations had been ongoing 
with the city since 2007. Due to the disparity of the DON and City 
valuations, many compensation options were reviewed to convey the 
property while still obtaining Fair Market Value (FMV). The Navy had 
previously offered deferred compensation and percentages of gross 
revenue. The city had offered profit participation subordinate to a 
guaranteed return to developers. With adoption of language in the 
fiscal year 2010 National Defense Authorization Act, Congress enacted 
new EDC language that allows flexibility in transfer terms for EDCs 
including accepting profit participation structures.
    Utilizing this authority, we were able to announce in December that 
an agreement in principle was reached with the City of San Francisco to 
convey 996 acres of the former Naval Station Treasure Island. The 
agreement guarantees $55 million to the Navy paid over 10 years with 
interest and an additional $50 million paid once the project meets a 
return of 18 percent. Then after an additional 4.5 percent return to 
investors (22.5 percent total), the Navy would receive 35 percent of 
all proceeds. This deal represents a unique opportunity to spur 
development, while still providing a guaranteed payment to the Navy as 
well as a share in the benefit of what both the City and the Navy 
expect to be a successful redevelopment and job generating project.
    The environmental cleanup of Treasure Island is nearing completion. 
Once the City finalizes California Environmental Quality Act 
documentation and approvals with the Board of Supervisors in late 2010 
or early 2011, we will be in position for the clean transfer of more 
than 75 percent of the base. The remaining cleanup includes the 
continued treatment of two small groundwater plumes and removal of low 
level radioactive contamination. These projects and the remaining 
transfer are expected to be complete well before the land is needed for 
subsequent phases of the redevelopment project.
                        brac 2005 implementation
    The Department has made significant progress during the past year, 
and to date has completed 253 of 488 realignment and closure actions as 
specified in our established business plans. A number of construction 
projects have already been completed or are well on their way. The PB 
2011 budget request of $342 million will enable us to continue 
outfitting buildings, realigning functions, and closing bases in 
accordance with our business plans. Although all 59 of Department of 
the Navy-led business plans have already been approved, four additional 
plans with Navy equity led by other services have been approved. Thus, 
the Department's BRAC 2005 Program is on track for full compliance with 
statutory requirements by the September 15, 2011 deadline.
Accomplishments
    In total, the Department has awarded 105 of 117 BRAC construction 
projects with a combined value of $1.8 billion. The final 12 projects 
worth approximately $303 million are on schedule for award this year. 
Some noteworthy achievements include:
  --Seven BRAC construction projects, programmed at $211 million, have 
        been awarded and are under construction at Joint Base McGuire-
        Dix-Lakehurst, NJ. This work supports the relocation of units, 
        aircraft, and equipment from the closure of Naval Air Station 
        Joint Reserve Base Willow Grove, PA. The Navy supported the 
        full operational capability of Joint Base McGuire-Dix-Lakehurst 
        and successfully transferred all Navy real property in 
        September 2009.
  --Construction projects valued at over $100 million have been awarded 
        to support the Consolidation of Correctional Facilities into 
        Joint Regional Correctional Facilities. New level II (Medium 
        Security) correctional facilities are being constructed at 
        Miramar, CA and Chesapeake, VA and an addition to the Navy's 
        Brig in Charleston, SC is underway.
Land Conveyances and Lease Terminations
    By the end of fiscal year 2009, the Department disposed of 42 
percent \1\ of the property that was slated for closure in BRAC 2005. 
These disposal actions were completed via a combination of lease 
terminations, reversions, public benefit conveyances, and Federal and 
DOD agency transfers. Of interest for fiscal year 2009 is the complete 
disposal of Naval Air Station Atlanta. Thirty seven acres were returned 
to the Air Force and 107 acres were transferred to the Army for use by 
the Georgia National Guard. Last year we also disposed of the Navy 
Reserve Center in Orange, TX for use by the community as a port 
facility.
---------------------------------------------------------------------------
    \1\ The percent disposed is lower than stated last year as we added 
over 300 acres to the amount to be disposed due to property becoming 
available at NS Newport and completion of legal surveys over the past 
year.
---------------------------------------------------------------------------
    The most significant action we have planned for 2010 is the 
reversion of the main base at Naval Station Ingleside, TX. We have been 
working closely with the Port of Corpus Christi to complete this action 
by the end of April, when the base will operationally close, 5 months 
earlier than planned. The 2010 Plan also includes transfer of real 
property at Naval Air Station Brunswick, the Navy Marine Corps Reserve 
Center Tacoma, WA, the Inspector Instructor Facility Rome, GA, and the 
last parcel at Navy Reserve Center Duluth, MN. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Naval Support Activity New Orleans, LA
    Construction for the new building that will house Headquarters, 
Marine Forces Reserve and Marine Corps Mobilization Command is well 
underway in the future Federal City. To support the closure of Naval 
Support Activity New Orleans and the relocation of base operating 
support and tenant activities to Naval Air Station Joint Reserve Base 
New Orleans, nine construction projects have been completed and another 
five are on-going.
Naval Air Station Brunswick, ME
    The Department's largest BRAC 2005 operational action will close 
Naval Air Station Brunswick, ME, and consolidate the East Coast 
maritime patrol operations in Jacksonville, FL. The newly constructed 
hangar in Jacksonville, FL, completed in May 2009, is now home to all 
five relocated P-3 squadrons. It will also support the future 
transition to the P-8 Poseidon aircraft. Runway operations in Brunswick 
ceased in February 2010.
Naval Air Station Joint Reserve Base Willow Grove, PA
    In 2007, legislation was enacted directing the Department to 
transfer Naval Air Station Joint Reserve Base Willow Grove, PA to the 
Air Force, who would then convey property to the Commonwealth of 
Pennsylvania for the operation of a Joint Interagency Installation. 
Since that time the Department and the Air Force have worked with the 
Commonwealth on the actions required to implement the transfer of real 
property.
    In November 2009, Governor Rendell of the Commonwealth of 
Pennsylvania informed the Secretary of Defense that the Commonwealth 
would no longer pursue the Joint Interagency Installation because of 
fiscal constraints. Based on that decision, the closure of Naval Air 
Station Joint Reserve Base Willow Grove will follow the established 
reuse planning process. To that end, the Department has initiated 
Federal Screening with other DOD and Federal agencies and is working 
with the LRA, Horsham Township, on its reuse planning efforts.
Joint Basing
    All four Joint Base Memorandums of Agreement (MOAs) where the 
Department is the lead component have now been approved. The MOA for 
each joint base defines the relationships between the components, and 
commits the lead component to deliver installation support functions at 
approved common standards. Resources including funding, personnel, and 
real property transfer to the lead component. The MOAs are reviewed 
annually for mission, manpower, and financial impacts and any needed 
resource adjustments. Joint Basing has two implementation phases. Phase 
I installations--Little Creek-Fort Story and Joint Region Marianas--
reached full operational capability in October 2009, and Phase II 
installations--Anacostia-Bolling and Pearl Harbor-Hickam--are planned 
for October 2010.
Environmental Cost To Complete and Financial Execution
    The Department's remaining environmental liabilities for BRAC 2005 
are substantially less than in previous rounds of BRAC given the 
relatively few number of closures, the absence of major industrial 
facilities, and the extensive site characterization, analysis, and 
cleanup that has occurred over the last several decades. Over the last 
year, we spent $8 million in cleanup at BRAC 2005 locations. The 
majority of this funded environmental activities at Naval Air Station 
Brunswick, ME and Naval Weapons Station Seal Beach Detachment Concord, 
CA. Our remaining environmental cost to complete for fiscal year 2010 
and beyond is $103 million.
    The Department is achieving an execution rate of our fiscal year 
2006-2009 funds of nearly 90 percent. We have realized bid savings on 
some construction projects and have primarily used these savings to 
offset other construction project increases.
Challenges
    We are scheduled to meet the September 15, 2011 deadline and will 
continue to manage ongoing construction, outfitting and relocation 
efforts closely. Many of our construction projects require either 
special certifications or accreditations before occupancy to include 
DOD Explosive Safety Board approvals, accreditation of correctional 
facilities or certification of Sensitive Compartmented Information 
Facilities within constructed facilities.
    We plan to continue to work closely with the other military 
services and defense agencies on complex relocation actions that 
require close coordination. While they remain on track for timely 
completion, we must maintain effective and continuous coordination to 
succeed.
              meeting the construction execution challenge
    While our investment in infrastructure continues at a record 
breaking level, the Naval Facilities Engineering Command (NAVFAC) has 
demonstrated its ability to accomplish the program, and more. The 
Command's execution rate for fiscal year 2009 was nothing short of 
phenomenal; particularly considering it awarded the majority of the 
additional $1.8 billion American Recovery and Reinvestment Act program 
by the end of the calendar year while maintaining an execution rate of 
90 percent for the regular program. Only 10 ARRA projects remain to be 
awarded, including the new Naval Hospital at Camp Pendleton, CA.
    NAVFAC has a comprehensive acquisition strategy for executing the 
Guam realignment program, with plans to award three separate small 
business Multiple Award Construction Contracts (MACCs) and two MACCs 
for unrestricted competition. A Small Business MACC will be awarded 
this Spring, a Small Business 8(A) MACC will be solicited in March, and 
a HUBZONE MACC has been awarded. Additionally, there will be an 
unrestricted competitively bid MACC for U.S. funded projects, with 
another MACC planned for Japanese funded construction. Using smart 
acquisition strategies and leveraging resources across the enterprise, 
NAVFAC is fully capable of meeting the demand for its services.
                               conclusion
    Our Nation's Sea Services continue to operate in an increasingly 
dispersed environment to support the Maritime Strategy and ensure the 
freedom of the seas. We must continue to transform and recapitalize our 
shore infrastructure to provide a strong foundation from which to re-
supply, re-equip, train, and shelter our forces. With your support of 
the Department's fiscal year 2011 budget request, we will be able to 
build and maintain facilities that enable our Navy and Marine Corps to 
meet the diverse challenges of tomorrow.
    Thank you for the opportunity to testify before you today. I look 
forward to working with you to sustain the war fighting readiness and 
quality of life for the most formidable expeditionary fighting force in 
the world.

    Senator Hutchison. General Payne.
    General Payne. Senator, in that you have our written 
statement, I just want to thank you for your steadfast support 
and the opportunity to be here today. And I look forward to 
your questions.
    Senator Hutchison. Thank you.
    General Payne. Yes, ma'am.
    Senator Hutchison. Admiral Mossey.
    Admiral Mossey. Senator, I would echo what General Payne 
said. Thank you for the subcommittee's support and I am ready 
to answer any questions you may have.

                                  GUAM

    Senator Hutchison. Okay. I think I am going to focus on 
Guam because that is clearly, I think, the most current issue 
that we have.
    Mr. Natsuhara, last year Congress provided $300 million for 
the Guam relocation project, and this year's request is $452 
million. Are the fiscal year 2010 projects currently on hold?
    Mr. Natsuhara. We are currently waiting until the EIS is 
completed. We are not able to move forward until the record of 
decision is signed and that is scheduled for the end of this 
fiscal year, and then we plan on executing our fiscal year--the 
previous money, the fiscal year 2010 money.
    Senator Hutchison. Okay. Let me talk to you, General Payne, 
about the status of the site for the preferred training range 
and what is the status of that. And just in general--I think it 
is clear from the earlier panel as well--is there any kind of 
alternative being looked at by the marines, either the full 
8,000 movement of marines, or is there anything that is being 
looked at in any kind of a lesser footprint in Guam?
    And if you do not get the preferred training range, would 
that also require you to look at other alternatives? And what 
are your plans or contingency plans, I guess I should say?
    General Payne. Yes, ma'am. As Mr. Mitchell said, a lot of 
alternatives were looked at before. But we are where we are 
now. I think your question is very pertinent in that based on 
what we know now, what are we doing, if I interpret your 
question correctly.
    Over the last year, we did take a very hard look at Korea 
and the viability of positioning marine forces there, and we 
looked at putting a small marine air/ground task force [MAGTF] 
there and the pros and cons of that. And we came away with the 
conclusion that Guam is far and away our preferred alternative.
    That said, should for some reason we run into 
insurmountable issues on Guam, we must then reexamine the size 
of the marine force. We have begun discussing it, but quite 
frankly, we are not very far along in that analysis because we, 
at this juncture, are still confident that we can work through 
some of these issues on Guam and get to the preferred lay-down, 
which would be a little over 8,000 marines and a robust MAGTF 
capability.
    Senator Hutchison. Could you give me a couple of the major 
points that you determined Korea would not be as helpful to the 
marines or as desirable as that full footprint on Guam?
    General Payne. I can give you what from my position it 
appeared to be the case. However, I must qualify it to the 
extent that I was not heavily involved in that analysis because 
my main emphasis is the installation side and the environmental 
side as opposed to the operational. And there were concerns 
with both.
    The cost of the lay-down of marine forces was certainly 
substantial on Korea, as it will certainly be anywhere in the 
Pacific. So there was not a----
    Senator Hutchison. More so than Guam where we already are 
going to have the investment in the forward basing in the south 
of Korea?
    General Payne. We would not have as extensive, certainly, 
infrastructure issues on Korea as we are dealing with with 
Guam, and that is absolutely true. The actual bases themselves 
and the ranges would be pretty comparable. However, we felt 
that from just a pure strategic, forward positioning 
standpoint, Guam was certainly preferable. It provided more 
flexibility in a better location. There was some concern with 
Korea as to training availability in competition with the Army. 
There was some concern with how flexible it would be to move 
forces off of Korea for other exercises and support and 
contingency in the Pacific.
    But the Marine Corps does need to continue to explore other 
alternatives, just in case our preferred alternative, which is 
Guam, runs into problems.
    I think your second question was with respect to training 
ranges. On Guam, our plan is to have small-unit and individual 
skills training, essentially pistol, rifle, machine gun type 
training. The crew served weapons training and indirect fire 
ranges at this point we hope to position on Tinian and possibly 
Pagan Islands in the Northern Marianas. We have not had an 
opportunity to do the extensive environmental study of Tinian, 
both with respect to the ranges and the air space availability, 
but that would be the next step.
    Should we run into obstacles with respect to training, that 
too would be just a gigantic constraint relative to positioning 
marines on Guam or in the Northern Marianas. Absolutely.
    Senator Hutchison. Okay. Those were the major questions 
that I had. I really thank all of you for coming. Is there 
anything that you would wish to add?

                     ADDITIONAL COMMITTEE QUESTIONS

    If not, the questions that I asked for the record of the 
previous panel would be due March 30 to the subcommittee 
chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Roger M. Natsuhara
               Questions Submitted by Senator Tim Johnson
                                 energy
    Question. As you noted in your written testimony, Secretary Mabus 
has set a goal of having 50 percent of the Navy's shore-based energy 
come from renewables by 2020.
    What percentage of shore-based energy currently comes from 
renewables?
    Answer. Under the 2010 National Defense Authorization Act 
definition, renewable energy as a percentage of total energy, the Navy 
renewable energy source contributions totaled to 11 percent of our 
total reportable shore energy consumption.
    Question. Do you have a plan in place and an investment strategy in 
the FYDP to achieve the 50 percent goal by 2020?
    Answer. The Navy submitted the President's fiscal year 2011 budget 
(PB11) to the Office of the Secretary of Defense prior to the Secretary 
of the Navy (SECNAV) announcement of his Energy Goals for 2020 in 
October 2009; as such, the SECNAV Energy Goals were not considered in 
the PB11 program.
    Question. A disruption of the commercial power grid poses a serious 
threat to critical military base operations. What is the Navy doing in 
terms of infrastructure to address this security threat?
    Answer. The threat of commercial power supply disruption is 
considered within Secretary Mabus' 2020 energy goals. The Navy has a 
three-tiered approach to Energy Security for the future:
  --Improve energy grid resiliency and ability to control demand-side 
        load control inside our fence lines.
  --Improve the backup and redundant energy systems to ensure reliable 
        energy to our critical infrastructure even in the event of an 
        extended grid failure.
  --Work with utility providers to ensure the Navy is in the best 
        possible position for reliable energy in the near-term, and 
        positioned to integrate fully with a National ``Smart Grid'' in 
        the long-term.
                                  guam
    Question. Last year Congress provided $300 million for the Guam 
relocation project, and the request this year is for $452 million.
    Are the fiscal year 2010 projects currently on hold?
    Answer. No, the fiscal year 2010 projects are not on hold. Designs 
are progressing or complete, with the construction acquisition phase 
scheduled to start over the next 3 months. These projects will be 
awarded after the Record of Decision (ROD) on the proposed action is 
signed.
    Question. What is the earliest that the fiscal year 2010 funds 
could be obligated?
    Answer. Construction awards are currently projected for the post-
ROD timeframe (September 2010), the earliest that fiscal year 2010 
funds could be obligated.
    Question. If the projects can go forward then, could the Navy 
execute them by the end of the fiscal year?
    Answer. Our acquisition plan has us awarding all fiscal year 2010 
projects within fiscal year 2010 contingent upon the signing of the ROD 
as stated above.
    Question. On that schedule, could the Navy execute the full $752 
million by the end of fiscal year 2011?
    Answer. Three of the fiscal year 2011 projects are the second 
increment of fiscal year 2010 projects and the funds will be obligated 
soon after receipt. The remainder is proceeding in the design phase 
with awards scheduled for no later than third quarter fiscal year 2011.
    Question. Commercial port improvements are crucial to the Navy's 
construction program on Guam, but an anticipated DOT stimulus grant to 
do the work recently fell through. How does the Navy plan to address 
this problem?
    Answer. The Administration has requested Congress to grant the 
Department of Defense authority to transfer up to $50,000,000 of 
expiring fiscal year 2010 funds to the Department of Transportation's 
Port of Guam Improvement Enterprise Fund, established in the fiscal 
year 2009 National Defense Authorization Act (Public Law 110-417, 
section 3512). This funding, in conjunction with a matching loan from 
USDA, would enable the Maritime Administration (MARAD) to make 
improvements to the port.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
    Question. Rhode Island faces the Nation's third highest 
unemployment rate at 12.7 percent and a recession that hit earlier than 
any other State. Indeed, many highly skilled workers in the 
construction industry cannot find work.
    I continue to support efforts to revitalize Navy infrastructure, 
including projects at Naval Station Newport. Rhode Island contractors 
have expressed frustrations in terms of their ability to effectively 
compete for this work. Information provided at my request by the Navy 
has demonstrated that a large number of Navy construction projects in 
Rhode Island are going to out-of-State firms.
    To your knowledge, are other States experiencing this situation?
    Answer. We have had, and answered, concerns from Connecticut, 
Illinois and Arizona.
    Question. What steps are you taking to ensure that there is ample 
competition for these projects that includes in-State firms?
    Answer. To ensure ample competition for projects, the Naval 
Facilities Engineering Command (NAVFAC) publicizes contract 
solicitations in accordance with Federal Acquisition Regulations (FAR). 
We also set aside as much work as possible for small business, based on 
the acquisition strategy prepared in accordance with the Competition in 
Contracting Act of 1984 and the Federal Acquisition Regulations. While 
these small business set-asides lend themselves to attracting local 
firms, law and regulations do not allow the Navy to restrict 
competition by State residency of firms.
    Question. How do you ensure that there is sufficient notification 
of open solicitations?
    Answer. We ensure sufficient notification by following FAR Part 5--
Publicizing Contract Actions, which requires the Contracting Officer to 
publicize proposed contract actions expected to exceed $25,000 at a 
Government-wide point of entry (GPE). The notices are published at 
least 15 days before issuance of a solicitation. The GPE utilized by 
the Navy includes Navy Electronic Commerce Online (NECO) which has a 
direct link to Federal Business Opportunities (FEDBIZOPPS). Information 
for additional opportunities can also be found on the NAVFAC Small 
Business Web site, https://smallbusiness.navfac.navy.mil.
    Question. What initiatives are available to help in-State firms 
learn about and better compete for contracts? What support or technical 
assistance can you offer to firms in my State?
    Answer. NAVFAC holds various conferences throughout the United 
States which provide assistance and information to all types of firms 
about contracting opportunities and the necessary resources to compete 
for NAVFAC contracts. Many of these conferences are targeted to small 
business firms and NAVFAC will initiate a similar type of conference 
for the Rhode Island area.
    Question. President Obama issued Executive Order 13502 encouraging 
executive agencies to consider the use of Project Labor Agreements 
(PLAs) in connection with large-scale construction projects.
    I support this effort because it promotes the efficient 
administration and completion of Federal construction projects. It 
would also make sure workers are being treated fairly in terms of wages 
and benefits during these difficult economic times.
    What efforts have you taken to implement this Executive Order?
    Answer. Naval Facilities Engineering Command (NAVFAC) is prepared 
to implement the Executive Order as appropriate, pending the regulatory 
publication of Department of Defense or Department of Navy supplemental 
guidance now that Federal Acquisition Regulation (FAR) implementing 
rules were published on April 13, 2010.
    At the request of the Office of the Secretary of Defense and Deputy 
Assistant Secretary of the Navy (Acquisition & Logistics Management), 
NAVFAC provided panel members for the Office of Management and Budget 
(OMB) PLA Steering Committee, which has been working to assist in the 
FAR process. These subject matter experts identified challenges and 
suggested solutions for inclusion in the FAR rule that now provides 
guidance mechanisms for implementing project labor agreements in the 
Federal sector.
    Additionally, the NAVFAC Labor Advisor has initiated meetings with 
the AFL-CIO, Building and Construction Trades Department, to discuss 
possible mechanisms for establishing PLA requirements as a part of the 
acquisition process and to explore the feasibility of a PLA on specific 
projects.
    Question. Secretary Mabus has set important goals for the Navy to 
improve energy efficiency and to increase the use of renewable energy 
sources.
    You are, I think, promoting the use of renewable energy resources 
largely to help the Navy to control its own energy supply and operate 
independently and securely. Still, there is the potential to share 
surplus resources with the civilian grid.
    How are you managing the interconnection between Navy installations 
and the civilian grid generally? Are you looking at how surplus 
``green'' power can be shared, even sold, on the civilian side?
    How are you coordinating with the States and other Federal agencies 
(including the President's Ocean Policy Task Force, NOAA, the Minerals 
Management Service, and others) to appropriately site offshore 
renewable energy projects?
    Answer. When the Navy develops large renewable projects we 
typically require the contractor to own and operate the project. In 
those cases where the size of the project exceeds the requirements of 
the installation, we authorize the contractor to sell power to the 
grid. The contractor is responsible for interaction with the utility 
companies and compliance with all transmission access requirements.
    Navy has not entered into any offshore projects to date. We are 
actively participating in a number of interagency forums with the 
Department of Energy, the National Oceanic and Atmospheric 
Administration, the Federal Energy Regulatory Commission, and the U.S. 
Coast Guard, particularly with respect permitting and site issues.
                                 ______
                                 
          Questions Submitted to Major General Eugene G. Payne
               Questions Submitted by Senator Tim Johnson
    Question. What is the status of acquiring the site for the 
preferred training range on Guam?
  --Do you believe that Tinian would be a suitable alternative?
  --How would it impact training if the Marines cannot use the proposed 
        range on Guam?
  --Are there any alternative training ranges on Guam?
  --If the Marine Corps cannot obtain the preferred training site on 
        Guam, is the Guam relocation still a viable option for the 
        Marines?
    Answer. No Department of Defense decision has been made regarding 
the alternatives presented in the Draft Environmental Impact Statement 
(EIS). It is important that the EIS process be allowed to continue 
without any pre-determination on any particular alternative. It is 
important to note that the realignment of U.S. forces to Guam is 
intended to provide a long term posture that benefits both U.S. 
security interests as well as the people of Guam. Our land acquisition 
will use the minimum amount of land needed to support readiness and 
quality of life, ensure that we are good neighbors, minimize the need 
for marines and dependents to drive on roads and impact the local 
communities, and ensure good stewardship of any cultural or historical 
sites. Without the acquisition of additional land, the challenges with 
future growth and encroachment will become more difficult to fix over 
time and would have a greater impact to the local communities.
  --Tinian is currently planned to support larger-force training events 
        involving up to 400 marines. The training planned for Guam is 
        the type of training that marines will conduct on a daily/near-
        continuous basis. The types of ranges being planned for on Guam 
        support basic, individual skills--those essential warfighting 
        skills that make us marines--that all marines are required to 
        use on an annual basis, at a minimum, for readiness 
        sustainment. Based on the frequency of range use, the number of 
        marines relying on these ranges for annual qualifications and 
        the enduring presence the Marine Corps intends to have on Guam, 
        we have determined that it is more cost effective to build 
        certain ranges at the location where marines live and work. 
        These ranges would be used on a near continuous basis, and the 
        115-mile transit to Tinian would be beyond the Marine Corps 
        local tactical lift capability. Additionally, the ranges 
        currently planned on Tinian (under the current draft EIS) do 
        not support medium or heavy caliber rounds as required for the 
        multi-purpose machine gun range nor does it provide for the 
        required special use airspace. Finally, building the required 
        ranges on Tinian would require significant construction, 
        infrastructure, and permanent basing of support personnel.
  --The Marine Corps is interested in the Route 15 lands to best 
        maximize training efficiencies, limit the amount of road travel 
        by military vehicles, and provide sufficient range design 
        flexibility while ensuring long-term utilization of the land. 
        Numerous directives dictate USMC range design and construction 
        (size, distance, orientation, safety buffers). Further, 
        training and readiness requirements stipulate which training 
        must be conducted prior to conducting subsequent training. To 
        comply with the requirements it is prudent to travel to a 
        consolidated area which allows centralized movement from one 
        range to another thereby reducing the need to travel large 
        distances over the roads. As a result, marines are able to 
        train more efficiently which results in less needed range time 
        and therefore less of an impact on the communities surrounding 
        the ranges. A solution other than a consolidated training area 
        would be counter to these efforts.
  --The Draft EIS considered multiple alternative training ranges; 
        however, they were dismissed for various reasons. The Marine 
        Corps requires greater training capabilities than are currently 
        available on Guam, particularly in terms of live-fire ranges. 
        As studied in the Draft Environmental Impact Statement, the 
        needs for different types of live-fire ranges are best 
        configured in a consolidated range complex.
    --Finegayan was dismissed by the Government of Guam as a potential 
            live-fire training location because the Surface Danger 
            Zones would extend into the western coastal waters, making 
            them unusable to water traffic and impacting tourism near 
            Tumon.
    --Tarague beach was dismissed as a potential live-fire training 
            location because the lack of available acreage to fully 
            accommodate the required Surface Danger Zones.
    --Ritidian was dismissed as a potential live-fire training location 
            because there is simply not enough acreage at Ritidian to 
            safely build the types of firing ranges required for Marine 
            Corps training. Furthermore, the Fish and Wildlife Service 
            Property at Ritidian is part of a larger environmental 
            preserve that extends south to NCTS Finegayan.
    --We cannot construct live-fire ranges in the Naval Munitions Area 
            for three reasons. First, the rolling terrain is too severe 
            to grade for a live fire range. Second, the explosive 
            safety arcs are active daily due to ammunition operations 
            and the arcs overlap almost the entire munitions area. 
            Third, round impacts could create lead and phosphorous 
            contamination of the Fena Reservoir due to rain run-offs 
            and potentially harm the reservoir which supplies fresh 
            water to the lower half of Guam.
  --A Marine Corps title 10 requirement is to ensure that its marines 
        are properly trained. The land use for live-fire training 
        identified in the Draft Environmental Impact Statement was the 
        best solution to meet Marine Corps training requirements and 
        throughput needs. Several land use options were identified but 
        quickly dismissed because of safety, noise, or environmental 
        concerns. Live-fire training ranges on Guam are required to 
        sustain individual skills readiness for marines stationed 
        there. The best long-term land use for live-fire training 
        ranges involves the acquisition of public lands along Route 15 
        to ensure safety and minimal impact to the local community and 
        environment. Given the rationale for dismissing the alternative 
        training areas, without the acquisition of public lands along 
        Route 15, the Marine Corps would not have the ability to 
        maintain readiness of those forces on Guam and create risk in 
        meeting Combatant Commander requirements with forward postured 
        forces.
    Question. It appears that several different sites are now being 
considered for the Futenma relocation on Okinawa. Has the Marine Corps 
considered other sites on Okinawa, and do you believe there are viable 
alternatives to the current plan?
    Answer. The current Futenma Replacement Facility (FRF) plan is a 
result of several years of bilateral planning culminating in what was 
agreed to be the best answer for both parties. The GoJ has not made any 
formal proposals for alternate options, nor have they formally 
identified what is wrong with the current Agreed Implementation Plan 
(AIP). We continue to honor the AIPs and will respect the GoJ's 
processes of policy review. However, it is the USMC position that any 
FRF option the GoJ may present must provide the same or better 
capability of the current FRF plan.
    Question. Is the Marine move to Guam contingent on the Futenma 
relocation?
    Answer. As negotiated in the 2006 AIPs and reiterated in the 
February 2009 International Agreement, the relocation of marines from 
Okinawa to Guam is dependent on ``tangible progress'' toward completion 
of the FRF. The Marine Corps and Department of Defense position is that 
any Marine realignment must retain an aviation capability on Okinawa to 
support III MEF. That is why there is specific language to ensure a 
suitable replacement for Marine Corps Air Station Futenma, which will 
enable the relocation to Guam, and ultimately enable the return of 
bases back to the Government of Japan.
                                 ______
                                 
        Question Submitted to Rear Admiral Christopher J. Mossey
               Question Submitted by Senator Tim Johnson
    Question. The fiscal year 2011 budget request includes three major 
Milcon energy projects for the Marine Corps.
    Outside of ECIP, are there additional major Milcon energy projects 
programmed for the Navy and Marine Corps in the FYDP? If so, please 
identify those projects and the years in which they are programmed.
    Answer. The PB11 Milcon program contains the following Energy 
Security and Energy Efficiency improvement Milcon projects:
  --P-603, Shore Power to Ammo Pier, NAVMAG Indian Island, WA (fiscal 
        year 2015);
  --P-400, Replace North LP Electrical Distribution System, 
        PACMISRANFAC Hawaiian Area (fiscal year 2015);
  --P-393, Replace Wastewater Treatment Plant, NAS Fallon, NV (fiscal 
        year 2015); and
  --P-844, Upgrade Shore power for CAX Pier, CAD-A, NAVWEPSTA Yorktown, 
        VA (fiscal year 2015).

                          SUBCOMMITTEE RECESS

    Senator Hutchison. So with that, we are recessed and I 
thank you very much.
    [Whereupon, at 11:19 a.m., Tuesday, March 23, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
